<html>
<title> - EXAMINING THE 477 PROGRAM: REDUCING RED TAPE WHILE PROMOTING EMPLOYMENT AND TRAINING OPPORTUNITIES IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 116-147]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-147

EXAMINING THE 477 PROGRAM: REDUCING RED TAPE WHILE PROMOTING EMPLOYMENT 
              AND TRAINING OPPORTUNITIES IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            NOVEMBER 6, 2019
                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-744 PDF                WASHINGTON : 2020   
                  
                  


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 6, 2019.................................     1
Statement of Senator Cortez Masto................................    41
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................     4
Statement of Senator Murkowski...................................     3
Statement of Senator Udall.......................................     2

                               Witnesses

Andersen, Hon. Ralph, President/CEO, Bristol Bay Native 
  Association....................................................    15
    Prepared statement...........................................    17
Bighorn, Spike, Acting Deputy Bureau Director, Office of Indian 
  Services, Bureau of Indian Affairs, Department of the Interior.     5
    Prepared statement...........................................     7
Hoskin, Jr., Hon. Chuck, Principal Chief, Cherokee Nation........    11
    Prepared statement...........................................    13
Zientek, Margaret, Co-Chair, P.L. 102-477 Tribal Work Group......    19
    Prepared statement...........................................    20

                                Appendix

Response to written questions submitted to Spike Bighorn by:
    Hon. Catherine Cortez Masto..................................    47
    Hon. John Hoeven.............................................    46
    Hon. Tina Smith..............................................    47
    Hon. Tom Udall...............................................    46
Response to written questions submitted by Hon. Tom Udall to:
    Hon. Chuck Hoskin Jr.........................................    45
    Margaret Zientek.............................................    45


 
           EXAMINING THE 477 PROGRAM: REDUCING RED TAPE WHILE PROMOTING 
                        EMPLOYMENT AND TRAINING 
                    OPPORTUNITIES IN INDIAN COUNTRY

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I will call this oversight 
hearing entitled Examining the 477 Program: Reducing Red Tape 
While Promoting Employment and Training Opportunities in Indian 
Country to order.
    Today, we will hear from the Department of the Interior, 
tribal leaders and the co-chair of the 477 Work Group on the 
Administration's implementation of the Indian Employment 
Training and Related Services Act of 2017. Signed by President 
George H.W. Bush in 1992, Public Law 102-477 enabled tribes to 
coordinate and integrate employment and training programs 
administered by the Departments of Labor, Education, and Health 
and Human Services. This consolidation initiative was referred 
to simply as the 477 Program.
    The 477 Program began as a demonstration project aimed at 
creating employment opportunities in Indian Country by 
utilizing the principles of tribal self-determination and 
reducing unnecessary Federal bureaucracy. The lead agency to 
coordinate the 477 program is the Bureau of Indian Affairs 
within the Department of the Interior. At BIA and the Division 
of Workforce Development and Indian Services is specifically 
charged with coordinating the 477 Program.
    Under the 477 Program, participating tribes and tribal 
organizations are able to integrate employment training and 
related services from Federal agencies into a single plan. The 
existing arrangement allows non-Interior tribal funding that is 
intended to be used for employment-related services to be sent 
to the Department of Interior so tribes are able to receive all 
employment services funding in one transaction. This 
consolidation of Federal programs allows tribes to shape plans 
that will address the unique needs of their communities and 
reduces Federal bureaucracy.
    Under the 477 Program, tribes that participate in the 
program are required to submit a single plan, budget, financial 
report, and receive a single audit for all programs included in 
their 477 plan. This eliminates the need for tribes to have to 
individually comply with the data and financial reporting 
requirements of each individual program at each Federal agency. 
Reducing these unnecessary layers of bureaucracy has lessened 
the administrative burden on tribes and in turn has created 
more effective tribal programs. According to the Department of 
the Interior, paperwork has been reduced by 90 percent from 
what was required of a tribe before the 477 Program.
    Despite the program's success, Federal departments are 
hesitant to integrate 477 programs. While many issues were 
resolved through the 477 Work Group, disagreements related to 
funding transfers and reporting requirements have remained. Due 
to these unresolved issues, tribes came to Congress to amend 
the law, and Congress passed the Indian Employment Training and 
Related Services Act of 2017.
    In 2017, Congress amended Public Law 102-477 to make the 
477 Program permanent, expanded it from four Federal agencies 
to 12, allowed tribal organizations to participate and improve 
program eligibility, funding transfers, and reporting 
requirements. In addition the 2017 Act reaffirmed the 
Department of the Interior as the lead department in carrying 
out the program, and charged the Secretary of Interior in 
conjunction with the heads of the 11 other Federal agencies to 
enter into a memorandum of agreement providing for the 
implementation of the statute.
    After the law was amended, the BIA issued an 
interdepartmental memorandum of agreement with 11 Federal 
agencies in 2018. On December 20th, 2018, the Assistant 
Secretary of Indian Affairs sent out a dear tribal leader 
letter to inform the tribes of the recent memorandum of 
agreement, MOA. After the release of the dear tribal leader 
letter, tribes began voicing concerns that the memorandum of 
agreement was not in compliance with the amended law.
    There is still a great deal of uncertainty about how this 
memorandum of agreement complies with the law that Congress 
passed. Hopefully, today's oversight hearing can resolve the 
issues between the law that was passed and the agreement that w 
assigned.
    We will now turn to Vice Chairman Udall for your opening 
remarks.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Chairman Hoeven, thank you for scheduling 
today's hearing. The 477 Program is an important part of this 
Committee's work to support trial self-determination and 
economic development, two priorities I know we both share.
    In the Senate, I worked with you and Senator Murkowski to 
get the 477 amendments enacted in 2017. And as Vice Chairman, I 
have championed a number of other economic and workforce 
development bills as well, including S. 294, the Native 
American Business Incubators Program Act, S. 1161, the Native 
Educator Support and Training Act, S. 1853, the BADGES for 
Native Communities Act, and in the near future I will introduce 
the IHS Health Professions Tax Fairness Act. These bills will 
help create more job opportunities in Indian Country and get 
more Native youth ready to take on existing professional job 
opportunities in their own communities, all the while helping 
tackle the shortage of teachers, health care workers, and 
police officers that many tribes are facing.
    I look forward to moving each of them through the Senate, 
and I hope today's hearing on 477 serves as a reminder of 
Congress' role supporting economic and workforce development in 
Indian Country.
    Since its enactment in 1992, 477 has successfully allowed 
over 270 tribes to design workforce and economic development 
programs that suit their local needs. The program breaks down 
Federal silos and gives tribes the tools to take a holistic 
approach to community development.
    In my home State of New Mexico, the Pueblos of Ohkay 
Owingeh, Taos, and Laguna have used the 477 Program to get 
Native language teachers certified, send tribal members to 
school, and to teach Native youth about entrepreneurship. With 
this track record of success, it is no wonder why many in 
Indian Country believe the 477 Program is a model for 
streamlining more Federal programs that stretch across 
different departments.
    So I am concerned by reports that the Administration is not 
implementing the 2017 amendments to the 477 Program as Congress 
intended, and that it is not acting in good faith with 
participating tribes. I look forward to hearing more about 
these reports from today's witnesses, and to securing 
commitments from the Administration that it will make sure the 
477 Program interdepartmental memorandum of agreement fully 
complies with the law.
    Thank you, Mr. Chairman, and thank you very much to our 
panel for joining us today.
    The Chairman. Thank you, Vice Chairman Udall. At this 
point, I will turn to Senator Murkowski for any opening 
statement she might have, and also for the purposes of an 
introduction.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
for this hearing. I think this is an important oversight. I 
think we recognize very well that the design of the 477 
Program, where you create these efficiencies within your 
departments, within your agencies, to focus on very specific 
initiatives, that workforce development, employment 
opportunities, this is all good.
    We all know that in far too many of our tribes, far too 
many areas in the lower 48, and up in Alaska, you don't have 
the big infrastructure that is developed that would allow you 
to take on a lot of unnecessary or costly administrative 
overhead. So when we can build efficiencies into our programs, 
this should be a model for us all. I think that is what 477 
really was designed to do.
    So when it doesn't do what it is designed to do, we need to 
ask the questions why. So the efforts, as you point out, in 
2017, to address this, to put it back on track, I think was 
something that we all wanted to get behind. So the fact that we 
are sitting here now two years later, knowing that we still 
have areas that are not working as we intended.
    So I appreciate the input that we will receive from each of 
you today focused on this. Again, this is too important from 
the perspective of insuring that our employment and training 
services that are delivered by our tribes are done in the most 
efficient and the most effective way ever.
    We are honored here this afternoon to have a gentleman who 
is not only a leader in his community in Dillingham, a regional 
leader, as the president and CEO of Bristol Bay Native 
Association, but to be able to call Ralph Andersen my friend is 
a great privilege. He has traveled a long way, he is not a 
stranger to this Committee, because he is, as I mentioned, a 
leader and an advocate for so many of Alaska's Native peoples, 
not just those within his region.
    So we are thankful that you are here with us today, Ralph, 
and for the input that you will provide to the Committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Now I will turn to the good Senator from Oklahoma, Senator 
Lankford, for an opening statement and purposes of an 
introduction.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Mr. Chairman, thank you very much. I have 
the honor of being able to recognize two Oklahomans that are 
sitting on the panel today, so we are dominating the table at 
this point. I noticed you put the Oklahomans every other here 
to be able to break everything up.
    [Laughter.]
    Senator Lankford. I appreciate you both coming, to be able 
to be a part of this.
    Let me start by recognizing Principal Chief Chuck Hoskin, 
Jr. He leads 380,000 people in the Cherokee Nation, and we are 
grateful for you to be able to be here today, and for your 
leadership. Chief Hoskin is a husband and dad of two children, 
but also a leader. He is a graduate of the University of 
Oklahoma, and of the Oklahoma Law School. He was on the Council 
of the Cherokee Nation for six years, and I think you were 
Deputy Speaker there for a while, and then Secretary of State. 
His leadership continues here. They have just recently opened a 
remarkable outpatient clinic that is in Tahlequah, that I would 
encourage, any time you are in Oklahoma, for any member of this 
Committee, to be able to see what a tribal clinic could look 
like. It is a remarkable facility, in partnership with the 
Federal Government and with the Cherokee Nation.
    So we are grateful that you are here to bring your 
testimony as well today.
    Margaret Zientek is with the Sisseton-Potawatomi Nation, 
and is the Assistant Director, Citizen of the Potawatomi Nation 
Employment and Training Program that is based on Shawnee, 
Oklahoma. Thanks for your leadership on this issue of 477. You 
know there are not a lot of folks that follow this around the 
Country. For you to be able to dig in and be a part of this 
conversation is exceptionally helpful. Thanks for the way that 
you have implemented this.
    I would encourage you, if anyone on this Committee is in 
Oklahoma as well, to stop bay the Iron Horse Industrial Park, 
and to be able to see what job development looks like rapidly 
there, as they have developed a very unique international trade 
zone in the middle of Oklahoma. They have just landed their 
first business, it is a Canadian business that has come to 
Shawnee, Oklahoma that the Chairman can understand as well. I 
was there at the groundbreaking for the Iron Horse Industrial 
Park and all the jobs that were coming there. The Canadian 
business that was there, I turned to the Canadian business 
leader and I said, hey, this is a really great day. And he 
responded, oh, yeah, you betcha.
    [Laughter.]
    Senator Lankford. And I just smiled and thought, of course 
you did, as the Canadian business leader had come to respond to 
me that way.
    So I appreciate all that you are doing to be able to 
advance jobs and opportunity for all Oklahomans as well. It is 
great to see both of you here.
    The Chairman. Well, the good Senator is right about that. I 
do speak fluent Canadian. So if I can be of assistance, you 
just let me know.
    Are there any other opening statements? Okay, then we will 
proceed. Again, I want to thank all of our witnesses for being 
here. I am going to introduce the only one who hasn't been 
introduced, and let him proceed, and that is Mr. Spike Bighorn, 
Acting Deputy Bureau Director, Office of Indian Services, 
Bureau of Indian Affairs, Department of the Interior here in 
Washington. Please proceed, Mr. Bighorn.

       STATEMENT OF SPIKE BIGHORN, ACTING DEPUTY BUREAU 
        DIRECTOR, OFFICE OF INDIAN SERVICES, BUREAU OF 
           INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Bighorn. Thank you, Mr. Chairman.
    Good afternoon Chairman Hoeven, Vice-Chairman Udall, and 
members of the Committee. My name is Spike Bighorn, and I am 
the Acting Deputy Bureau Director for the Office of Indian 
Services, Bureau of Indian Affairs at the Department of the 
Interior. Thank you for the opportunity to provide testimony 
today regarding the 477 Program.
    Interior understands the importance of the 477 Program and 
its goal of reducing unemployment through workforce development 
and job training in tribal communities. This critical program 
builds capacity in Indian Country and Alaska Native villages by 
authorizing tribal governments and tribal organizations to 
integrate eligible employment, training, and related services 
programs that support workforce development and thereby, reduce 
the high unemployment rates in tribal communities and with 
native population centers.
    In 2017, amendments to the initial authorizing Act made the 
477 Program permanent, and expanded it to include eligible 
programs from 12 Federal departments, to which I will refer 
today as Federal partners. Pursuant to Section 11 of the 2017 
amendments, Congress directed the Federal partners to negotiate 
and execute a Memorandum of Agreement to implement those 
amendments.
    In 2018, the Federal partners signed the Interagency MOA, 
which is intended to facilitate coordination of and 
collaboration among the Federal partners in the implementation 
of the 477 Program. The MOA defines concrete procedures for 
Interior to consult with the other Federal partners in its 
review of a 477 plan, and sets forth how this consultation will 
be completed within the 90-day statutory deadline.
    In accordance with the MOA, Interior is working with the 
477 tribal working group, made up of tribes with existing 477 
plans, and our Federal partners, to update the 477 Program 
statistical and financial reporting forms and improve 
mechanisms for comprehensive Federal oversight and monitoring 
of the 477 Program.
    Interior remains committed to ensuring that tribes and 
tribal organizations are provided the services set forth in the 
477 Program. Equally as important is being a reliable partner 
to the other Federal agencies in the implementation of the 477 
Program.
    The Division of Workforce Development within my office at 
the Bureau of Indian Affairs is the lead agency for the 477 
Program, tasked with the role of administering the program 
among tribes, tribal organizations, and the other Federal 
partners. The BIA is responsible for working with tribes to 
ensure that plans submitted by a tribe under the 477 Program 
are completed in a timely manner. BIA coordinates the review 
and approval of plans, including waiver requests, with the 
Federal partners.
    While the BIA retains exclusive authority to approve or 
deny tribal 477 plans, Interior is committed to consulting with 
other Federal agencies and partners through the review, 
approval, and oversight processes.
    As the lead agency, the BIA also manages the distribution 
and monitoring of funds provided to tribes through the 477 
Program. Approved tribal plans are implemented on a three-year 
cycle, providing tribes with budget and program planning 
stability. Once a tribe receives these funds, they are 
consolidated into a single budget, allowing the tribes to 
exercise self-determination through flexible administration of 
those funds across activities from the approved plan.
    Currently, there are 67 tribally approved plans located in 
18 States. On an annual basis, approximately $175 million is 
consolidated by tribes as a result of their approved 477 plans. 
Over 270 tribes and tribal organizations are represented by the 
67 separate 477 plans. Interior anticipates this number will 
rise with the increased number of programs now eligible for 
integration.
    On September 20th, 2019, Interior co-hosted the first 
annual meeting of tribes and Federal partners with the Tribal 
477 Work Group Co-Chairs, Margaret Zientek and Holly Morales. I 
am pleased to report that 10 of the 12 Federal partners 
attended this meeting, with approximately 25 tribal partners 
participating either in person or via teleconference.
    The meeting provided a meaningful exchange between the 
tribes and the Federal partners on important issues related to 
the 477 Program. Interior looks forward to co-hosting the 
second annual meeting next summer at the National 477 
Conference.
    The 477 Program empowers each tribe to tailor their plan to 
the unique needs of their tribe, and create and implement 
program services that are in alignment with tribal self-
determination priorities. Examples of the 477 Program success 
can be seen across Indian Country in Alaska and the Lower 48 
State.
    The 477 Program allows participants to better their lives, 
continue education and training necessary for work, and start 
businesses that will in turn better their communities. This 
investment in Indian Country is making a positive impact on the 
employment rates in areas serviced by 477 Programs.
    The 477 Program lifts up tribal communities and Interior is 
committed to effective oversight and the administrative role it 
plays in the 477 Program. I look forward to continuing to work 
with tribes, tribal organizations, and our Federal partners to 
deliver this necessary program and expand the number of 
participating programs consistent with the law.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Bighorn follows:]

  Prepared Statement of Spike Bighorn, Acting Deputy Bureau Director, 
Office of Indian Services, Bureau of Indian Affairs, Department of the 
                                Interior
    Good afternoon Chairman Hoeven, Vice-Chairman Udall, and Members of 
the Committee. My name is Spike Bighorn and I am the Acting Deputy 
Bureau Director, Office of Indian Services, Bureau of Indian Affairs at 
the Department of the Interior (Interior).
    Thank you for the opportunity to provide testimony regarding Public 
Law 102-477, the Indian Employment, Training, and Related Services 
Demonstration Act of 1992 (477 Program). Interior understands the 
importance of the 477 Program and its goal of reducing unemployment 
through workforce development and job training in tribal communities by 
reducing and streamlining certain administrative requirements. From her 
private sector experience, the Assistant Secretary--Indian Affairs 
places a high value on workforce development. Assistant Secretary 
Sweeney also recognizes the need for flexibility in administering 
programs to best address specific tribal needs and priorities.
    The Assistant Secretary has made it a top priority to advance 
Native American workforce development and tribal self-determination.
    The 477 Program is a critical program that builds capacity in 
Indian Country and Alaska Native villages by authorizing tribal 
governments and tribal organizations to integrate eligible employment, 
training, and related services programs that support workforce 
development and, thereby, reduce the high unemployment rates in tribal 
communities and with native population centers.
Background of the 477 Program
    In passing Public Law 102-477 in 1992 (1992 Act), Congress intended 
to reduce unemployment in tribal communities by creating employment 
opportunities consistent with the principle of tribal self-
determination. The 1992 Act was also intended to increase the 
effectiveness of employment and training programs by reducing and 
streamlining administrative requirements through the consolidation of 
budgeting, reporting, and auditing systems. However, the 1992 Act was 
only a demonstration project and only applied to programs from the 
Departments of Interior, Labor, Education, and Health and Human 
Services.
    In 2000, Congress amended the 477 Program to allow tribes and 
tribal organizations more flexibility in using their funds for 
employment creation and to provide clarity on waiver requests in tribal 
plans. In 2017, Congress again amended the 477 Program in the Indian 
Employment, Training and Related Services Consolidation Act of 2017 
(P.L.115-93) (2017 amendments). Congress made clear that the purpose of 
the 477 Program is to facilitate the ability of federally recognized 
tribes and tribal organizations to integrate the eligible employment, 
training, and related services they provide from different federal 
sources, and is aimed at reducing administrative, reporting, and 
accounting costs.
    Most notably in the 2017 amendments, Congress made the 
demonstration project permanent, and expanded the 477 Program to 
include eligible programs from the Departments of Agriculture, 
Commerce, Energy, Homeland Security, Housing and Urban Development, 
Transportation, Veterans Affairs, and Justice. Today, there are twelve 
federal Departments that are authorized to participate in the 477 
Program (federal partners).
Interagency Memorandum of Agreement
    Pursuant to Section 11 of the 2017 amendments, Congress directed 
the federal partners to negotiate and execute a Memorandum of Agreement 
(MOA) to implement those amendments.
    The federal partners worked diligently to complete the final draft 
prior to the statutory deadline.
    In December 2018, the Secretary of the Interior and the heads of 
the other agencies named in the law signed an Interagency MOA. The MOA 
is intended to facilitate coordination and collaboration of the federal 
partners in implementing the 477 Program. The MOA defines concrete 
procedures for Interior to consult with the other federal partners in 
its review of a 477 plan and sets forth how this consultation will be 
completed within the 90-day statutory deadline. The 90-day deadline for 
reviewing and approving plans ensures that tribes receive a timely 
decision on their 477 plans.
    In accordance with the MOA, Interior is working with the 477 tribal 
working group, made up of Tribes with existing 477 plans, and our other 
federal partners to update the 477 Program statistical and financial 
reporting forms and improve mechanisms for comprehensive federal 
oversight and monitoring of the 477 Program.
    Interior remains committed to ensuring that tribes and tribal 
organizations are provided the services set out in the 477 Program. 
Equally as important is being a reliable partner to the other federal 
agencies in the implementation of the 477 Program.
477 Program Intent and Implementation
    Interior, through the Division of Workforce Development at the 
Office of Indian Services within the Bureau of Indian Affairs (BIA), is 
the lead agency for the 477 Program, tasked with the role of 
administering the 477 Program among tribes, tribal organizations, and 
the eleven other federal partners. The BIA is responsible for working 
with tribes to ensure that plans submitted by a Tribe under the 477 
Program are completed. BIA coordinates the review and approval of 
plans, including waiver requests, with the federal partners. If a 
program or waiver is denied, BIA works collaboratively with the tribe 
and the affected agency (one of the federal partners authorized to 
participate in the 477 Program) to overcome obstacles to such an 
approval. BIA also coordinates the dispute-resolution process between 
tribes and affected agencies to resolve disputes related to denied 
waivers. While the BIA retains exclusive statutory authority to approve 
or deny tribal 477 plans, Interior is committed to consulting with our 
other federal partners throughout the review, approval, and oversight 
processes.
    As the lead agency, the BIA also manages the distribution, 
monitoring, and auditing of funds provided to tribes through the 477 
Program. Once a plan is approved, and subject to the availability of 
funds, the affected agencies transfer funds to the BIA, which is 
responsible for distributing these funds to the tribe. Approved tribal 
plans are implemented on a three-year cycle, providing tribes with 
budget and program planning stability.
    Once a tribe receives these funds, they are consolidated into a 
single budget, allowing the tribe to exercise self-determination 
through flexible administration of those funds across activities from 
the approved plan. The tribes then report on outcomes for the program 
services and activities in the approved plan. The integrated funding 
and unified reporting system further serves to reduce the 
administrative burden on tribes and the federal government.
    For each of the 67 tribes and tribal organizations with active 477 
plans, the BIA conducts on-site monitoring at least once every three 
years and, in coordination with affected agencies, provides technical 
assistance related to audit findings or program activities. BIA will 
notify affected agencies of the on-site monitoring activities. Affected 
federal partners are invited to participate and notify the BIA of any 
issues or concerns so that they can be addressed during the on-site 
review. BIA also conducts annual 477 Program trainings at regional and 
national conferences for participating and non-participating tribes.
    Tribal 477 plans can include programs administered by the federal 
partners that are implemented for the purpose of job training, welfare 
to work and tribal work experience, creating or enhancing employment 
opportunities, skill development, assisting tribal youth and adults to 
succeed in the workforce, encouraging self-sufficiency, familiarizing 
individual participants with the world of work, and facilitating the 
creation of job opportunities, economic development, or related 
services.
    Participation in the program is voluntary for tribes and tribal 
organizations and the program is intended to demonstrate how tribes and 
tribal organizations can integrate employment, training, and related 
services to improve the effectiveness of services, reduce joblessness, 
and serve tribally-determined goals. The 477 Program is another step in 
implementing the policy of self-determination because tribes operating 
under an approved tribal plan are further able to implement programs 
designed to address tribal needs, guided by tribal priorities.
    Currently, there are 67 tribally approved plans (see Appendix A) 
located in 18 states: Alaska, Arizona, Idaho, Massachusetts, Michigan, 
Minnesota, Montana, Nebraska, Nevada, New Mexico, New York, North 
Dakota, Oklahoma, Oregon, South Dakota, Washington, Wisconsin, and 
Wyoming. On an annual basis, approximately $125 million is consolidated 
by tribes as a result of their approved 477 plans. Over 270 tribes and 
tribal organizations are represented by the 67 separate 477 plans. 
Interior anticipates this number will rise with the increased number of 
programs now eligible to be integrated into the 477 Program.
    The benefits of consolidating programs across twelve federal 
agencies greatly increases the flexibility with which tribes can 
provide critical workforce development services to their tribal 
members. The successes already achieved by the sixty-seven tribal 
entities with existing 477 plans demonstrate how this program benefits 
tribes and supports tribal sovereignty and self-determination.
    As mandated by the 2017 amendments to the 477 Program, Interior co-
hosted the first annual meeting of tribes and federal partners with the 
Tribal 477 Workgroup Co-Chairs, Margaret Zientek and Holly Morales, on 
September 20, 2019.
    I am pleased to report that 11 of the 12 federal partners attended 
the meeting, with approximately 25 tribal partners participating either 
in person or by teleconference. A major topic of discussion focused on 
the tribal comments related to the Interagency MOA.
    The meeting provided a meaningful exchange between the tribes and 
the federal partners on important issues related to the 477 Program as 
the first round of 477 proposals from the tribes under the new law are 
being submitted and reviewed. I look forward to co-hosting the second 
annual meeting next summer at the National 477 Conference.
477 Program Success
    The 477 Program empowers each tribe to tailor their plan to the 
unique needs of their tribe, incorporate culturally relevant 
components, and create and implement program services that are in 
alignment with tribal self-determination priorities.
    Programs are designed to allow participants to engage in employment 
and training activities along with related services like child care and 
cash assistance to allow them to successfully complete work activities. 
This alignment of services produces higher rates of success and 
employment attainment than if programs were operated individually. 
Programs administered through an approved 477 plan allow tribes to 
spend more time on delivering services rather than administrative 
activities.
    The 477 Program also supports American Indians and Alaska Natives 
in becoming entrepreneurs and addressing community needs. Let me give 
you some examples. An unemployed Bristol Bay Native Association 
participant recently filled out a single application for multiple 
services from the Bristol Bay Native Association. She received child-
care services while in training to become a licensed child-care 
provider. She earned a child-care certification and the Bristol Bay 477 
Program supported necessary home improvements. At the completion of 
these streamlined services, this participant was able to come off 
public assistance and is now a self-employed business owner in a rural 
community, providing critical child-care services to other members of 
her community.
    The Citizen Potawatomi Nation, Oklahoma, leveraged $100,000 to a 
micro-loan program to support small business development and encourage 
entrepreneurial and job creation activities. As borrowers repay their 
loans, that amount is reinvested in the loan program, allowing the 
Tribe to provide additional loans to more entrepreneurs. The initial 
investment has turned over five times and produced multiple 
entrepreneurs. It has significantly increased employment in the Tribe's 
service area.
    A young man from the Tohono O'odham Nation of Arizona applied for 
welfare assistance when he was unable to find work. He applied for 477 
services and was sent to HVAC School. Once he earned his certification, 
he returned to his community working for a local school district. He 
now owns his own HVAC business and hires 477 participants.
    Two Osage Nation Members applied for 477 services as they worked to 
obtain Certification in Law Enforcement Training and related equipment. 
These two individuals are now full-time police officers for their 
Tribe, with college degrees and law enforcement certificates.
    The Confederated Salish and Kootenai Tribes of the Flathead 
Reservation, Montana, train 477 Program participants who received funds 
under Temporary Assistance for Needy Families and Workforce Investment 
Opportunities Act programs to become program specialists. The Tribe 
then hires them as 477 Program staff and places them in local 
businesses in and around their service area.
    The Confederated Tribes of the Colville Reservation, Washington, 
have seen significant improvements among high federal dependency 
populations, despite high unemployment rates. Unemployment in the area 
is around 50 percent, however, the 477 Program continues to increase 
the number of clients served, providing both employment training and 
education related support and opportunities. From 2016-17 to 2017-18, 
despite a rise in the number of clients seeking services, the percent 
of adult clients exiting the program achieving positive employment 
outcomes increased from 26 percent to 32 percent. Cash Assistance 
clients exiting the program achieving positive employment outcomes also 
increased over the same period, while the percentage of clients exiting 
the Cash Assistance program with positive outcomes increased from 11 
percent to 15 percent.
    The success stories demonstrate how the 477 Program goes beyond any 
single individual program. The integrated assistance provided to 
individual program participants not only improves their likelihood of 
success and achieving future employment, but also increases the 
economic opportunities available locally to the whole community. A new 
child-care center is just one example, however, it means more options 
for parents to find affordable solutions for their own children while 
seeking employment, attending job training, or creating their own 
business.
    The 477 lifts up tribal communities; it is not a hand out, but a 
hand up. Interior is committed to the effective oversight and the 
administrative role it plays in the 477 Program. I look forward to 
continuing to work with tribes, tribal organizations, and our federal 
partners to deliver this necessary program and expand the number of 
participating programs consistent with the law.
                               appendix a
  <bullet> Aleutian Pribilof Island Association, Alaska
  <bullet> Arapaho Tribe of the Wind River Reservation, Wyoming
  <bullet> Assiniboine and Sioux Tribes of the Fort Peck Indian 
        Reservation, Montana
  <bullet> Association of Village Council Presidents, Alaska
  <bullet> Blackfeet Tribe of the Blackfeet Indian Reservation of 
        Montana
  <bullet> Bristol Bay Native Association, Alaska
  <bullet> Central Council of the Tlingit & Haida Indian Tribes, Alaska
  <bullet> Cherokee Nation of Oklahoma
  <bullet> Cheyenne River Sioux Tribe of the Cheyenne River 
        Reservation, South Dakota
  <bullet> Chickaloon Native Village, Alaska
  <bullet> Chilkat Indian Village, Alaska
  <bullet> The Chickasaw Nation, Oklahoma
  <bullet> The Choctaw Nation of Oklahoma
  <bullet> Chugachmiut, Alaska
  <bullet> Citizen Potawatomi Nation, Oklahoma
  <bullet> Confederated Tribes of the Colville Reservation, Washington
  <bullet> Confederated Tribes of the Grand Ronde Community of Oregon
  <bullet> Confederated Salish and Kootenai Tribes of the Flathead 
        Reservation, Montana
  <bullet> Confederated Tribes of Siletz Indians of Oregon
  <bullet> Confederated Tribes of the Umatilla Reservation, Oregon
  <bullet> Cook Inlet Tribal Council, Alaska
  <bullet> Copper River Native Association, Alaska
  <bullet> Eastern Shoshone Tribe of the Wind River Reservation, 
        Wyoming
  <bullet> Fort Belknap Indian Community of the Fort Belknap Indian 
        Reservation of Montana
  <bullet> Grand Traverse Band of Ottawa and Chippewa Indians, Michigan
  <bullet> Ho-Chunk Nation of Wisconsin
  <bullet> Kaw Nation, Oklahoma
  <bullet> Kawerak, Inc., Alaska
  <bullet> Knik Tribe, Alaska
  <bullet> Kodiak Area Native Association, Alaska
  <bullet> Lummi Tribe of the Lummi Reservation, Washington
  <bullet> Makah Indian Tribe of the Makah Indian Reservation, 
        Washington
  <bullet> Maniilaq Association, Alaska
  <bullet> Mashpee Wampanoag Tribe, Massachusetts
  <bullet> Menominee Indian Tribe of Wisconsin
  <bullet> Metlakatla Indian Community, Annette Island Reserve, Alaska
  <bullet> Mille Lacs Band of Chippewa Indians, Minnesota
  <bullet> The Muscogee (Creek) Nation, Oklahoma
  <bullet> Nez Perce Tribe, Idaho
  <bullet> Ohkay Owingeh, New Mexico
  <bullet> Orutsaramiut Native Council, Alaska
  <bullet> The Osage Nation, Oklahoma
  <bullet> Pawnee Nation of Oklahoma
  <bullet> Port Gamble S'Klallam Tribe, Washington
  <bullet> Pueblo of Laguna, New Mexico
  <bullet> Pueblo of Taos, New Mexico
  <bullet> Red Lake Band of Chippewa Indians, Minnesota
  <bullet> Reno-Sparks Indian Colony, Nevada
  <bullet> Rosebud Sioux Tribe of the Rosebud Indian Reservation, South 
        Dakota
  <bullet> Saint Regis Mohawk Tribe, New York
  <bullet> Seneca Nation of Indians, New York
  <bullet> Shoshone-Bannock Tribes of the Fort Hall Reservation, Idaho
  <bullet> Shoshone-Paiute Tribes of the Duck Valley Reservation, 
        Nevada
  <bullet> Sun'aq Tribe of Kodiak, Alaska
  <bullet> Sisseton-Wahpeton Oyate of the Lake Traverse Reservation, 
        South Dakota
  <bullet> Spirit Lake Tribe, North Dakota
  <bullet> Spokane Tribe of the Spokane Reservation, Washington
  <bullet> Standing Rock Sioux Tribe of North & South Dakota
  <bullet> Stockbridge Munsee Community, Wisconsin
  <bullet> Tanana Chiefs Conference, Alaska
  <bullet> Three Affiliated Tribes of the Fort Berthold Reservation, 
        North Dakota
  <bullet> Tohono O'odham Nation of Arizona
  <bullet> Tulalip Tribes of Washington
  <bullet> White Earth Band of Chippewa Indians, Minnesota
  <bullet> Winnebago Tribe of Nebraska
  <bullet> Yakutat Tlingit Tribe, Alaska
  <bullet> Zuni Tribe of the Zuni Reservation, New Mexico

    The Chairman. Thank you, Director Bighorn.
    Chairman Hoskin, please.

STATEMENT OF HON. CHUCK HOSKIN, JR., PRINCIPAL CHIEF, CHEROKEE 
                             NATION

    Mr. Hoskin. Thank you, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee.
    As Principal Chief of the Cherokee Nation, I am honored to 
testify on the 477 Program. The Cherokee Nation has 
participated in the program since 2002. In fiscal year 2019, we 
operated six grants, totaling $20 million, and served over 
3,500 Cherokee citizens. This fiscal year, we have increased 
our plan to nine grants, totaling $58.6 million.
    The flexibility to tailor economic development and job 
creation activities under the 477 Program is consistent with 
the Federal policy of tribal self-determination.
    The program is also efficient. It is innovative and it is a 
cost-saving measure that allows us to combine a number of 
services into a single plan. Our staff operates one budget, 
there is one report. And this is significant: our citizens only 
visit one counselor to receive all of the services that they 
need. These administrative savings ensure we can spend dollars 
on direct services rather than wasting time on redundant 
reporting or shuffling our citizens between case workers.
    For example, suppose a young mother comes to the Cherokee 
Nation asking for help, but she has barriers to employment, no 
driver's license, no high school diploma, no training, no 
childcare. Before the 477 Program began, we would have had to 
create separate files for adult education, for childcare, for 
training. Thanks to this program, we develop one plan and we 
integrate all of the services and one counselor can help this 
young mother get a GED, access childcare assistance, receive 
her driver's license, utilize assistance for training and gain 
work experience. We also use the program to create jobs for our 
citizens.
    So we work with our health department to provide training 
for medical coding, for dental assistant education. We work 
with our Cherokee Nation businesses for culinary training for 
our citizens. We work with our child development centers to 
train our people in early childhood education.
    We have also recently used our funds for a new Wayfinders 
Program, the large, wonderful facility that Senator Lankford 
mentioned. We have elders who need an extra income working in 
this facility to help their fellow citizens find their way 
through this wonderful, new 469,000 square foot health care 
facility.
    Soon, we will start using our funds to combat the opioid 
crisis. Opioid-impacted Cherokee citizens will receive 
employment assistance for jobs, and those jobs will in turn 
help other individuals struggling with addiction.
    I believe the 477 Program should be a model for other 
Federal programs. It is my hope that its success can be 
replicated.
    We also build on our 477 Program using our own resources. 
In October, the Council of the Cherokee Nation approved one of 
my key initiatives, the Career Readiness Act. We are doubling 
the amount of our own resources that we put into career 
training. So this demonstrates another benefit. It enables us, 
the 477 Program, to expand our own capacity, use our own 
resources to strengthen these important workforce efforts.
    Even though we have achieved enormous success under 477, we 
are experiencing challenges, and they are related to the 
memorandum of Agreement released by the Secretary of Interior 
in December of 2018. The MOA undermines the success of the 
program, it violates the spirit of the law, it imposes more 
stringent requirements than the Congress intended.
    In July of 2019, the Cherokee Nation requested and received 
approval for three additional programs, but one program was 
denied. The Disability Employment Initiative Grant was denied, 
because the MOA prohibits the inclusion of competitive grants 
and grants not exclusive to Indian tribes.
    However, Section 5 of the law clearly states that programs 
may be integrated into the 477 plan, ``based solely,'' and this 
is significant, ``or in part on their status as Indians under 
Federal law.'' The law also does not exclude grants for which 
other entities are eligible or which are awarded on a 
competitive basis. This misunderstanding threatens the 
livelihood of tribal citizens across Indian Country. We have to 
remember that young mother that I mentioned, who comes into our 
offices at her lowest point and leaves self-sufficient. And we 
have to remember countless others that are in the same or 
similar situation. We can't leave them behind.
    So as the Committee works toward the goal of strengthening 
this program, I urge you to remove the administrative barriers 
imposed by the MOA. This will affect our citizens, and we 
should not turn our back on those in need.
    I appreciate the opportunity to testify. I will be happy to 
answer any questions that you have.
    [The prepared statement of Mr. Hoskin follows:]

Prepared Statement of Hon. Chuck Hoskin, Jr., Principal Chief, Cherokee 
                                 Nation
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee:
    As Principal Chief of the Cherokee Nation, I am honored to join you 
all today and I appreciate the opportunity to testify on Public Law 
102-477, known as the ``477 Program.'' The Cherokee Nation is the 
largest federally recognized tribal government in the United States, 
with more than 380,000 tribal citizens and spanning 7,000 square miles 
in northeastern Oklahoma.
Background
    The 477 Program was first established as a demonstration project in 
1992 by Public Law 102-477. The law was intended to support economic 
development efforts and employment opportunities in Indian Country. 
During the 25 years the program existed as a demonstration project, it 
served more than 250 tribes. Two years ago, the law was amended, 
expanded, and made permanent by the Indian Employment, Training and 
Related Services Consolidation Act of 2017.
    Since its inception, P.L. 102-477 as amended has seen tremendous 
growth as tribes recognize the opportunities it presents for us to 
address our unique circumstances in a manner best suited to our 
individual tribal needs. The policy of tribal self-determination 
underlies the policy of P.L. 102-477 as amended. This law recognizes 
the unique circumstances of each sovereign tribe and the ability of 
tribal governments to determine its best course of action. The purpose 
of the 477 program is to ensure Indian tribal governments can integrate 
the employment, training, and related services they provide in order to 
improve the effectiveness of those services, reduce joblessness in 
Indian communities, and serve tribally-determined goals consistent with 
the policy of self-determination.
    The 477 Program authorizes tribal governments to consolidate and 
integrate federal programs across multiple agencies under one plan, one 
reporting system, and one budget, called a 477 plan, to create 
innovative employment and economic development programs tailored to 
their communities. Eligible programs include employment, job training, 
welfare to work and tribal work experience, economic development, skill 
development, self-sufficiency, job creation programs, and related 
services.
    Originally, tribes were only authorized to consolidate thirteen 
programs from the Department of Health and Human Services, Department 
of the Interior, and Department of Labor. The 2017 amendment expanded 
tribal authority to consolidate programs from a larger range of federal 
agencies, including the Department of Agriculture, the Department of 
Commerce, the Department of Education, the Department of Energy, the 
Department of Health and Human Services, the Department of Homeland 
Security, the Department of Housing and Urban Development, the 
Department of the Interior, the Department of Justice, the Department 
of Labor, the Department of Transportation, and the Department of 
Veterans Affairs. Congress granted the Department of the Interior final 
authority to approve 477 plans.
    In addition to expanding which programs were eligible for 
integration, the 2017 amendments also clarified language to ensure 
federal agencies could not impede program integration across agencies 
and more clearly articulated congressional intent. To facilitate the 
implementation of the Act, Congress required each of the involved 
federal agencies to enter into an interdepartmental Memorandum of 
Agreement. On December 20, 2018, the Secretary of the Interior released 
the thirteen-page Memorandum of Agreement.
Cherokee Nation's 477 Plan
    Since 2002, the Cherokee Nation has used the 477 Program to provide 
seamless provision of employment and training services to our tribal 
citizens. The program allows us to combine services without excess 
burden, resulting in large administrative savings. These savings ensure 
we can spend our dollars on direct services, rather than waste time on 
redundant reporting or shuffling our citizens between case workers. 
Currently, we operate nine different grants under our 477 plan, 
totaling over $58.6 million. In the last fiscal year alone, while our 
funding was at $20 million, we served over 3,509 Cherokee Nation 
citizens.
    For example, suppose a young mother comes to the Cherokee Nation 
asking for help and needing a job, but she has barriers to employment. 
She has no driver's license, no GED or high school diploma, no 
training, and no childcare. Before the 477 Program began, Cherokee 
Nation would have separate files for adult education, childcare, and 
training. Thanks to the 477 Program, we can develop one Individual 
Employment Plan that integrates all of our services. One counselor can 
help the young mother attain her GED, access childcare assistance, 
receive a driver's license, utilize financial assistance for training, 
and gain work experience, on the job training, a referral, or placement 
for employment. Our programs are integrated, rather than siloed into 
different offices, applications, and counselors.
    The 477 Program should be a model for other federal programs. It is 
efficient, cost saving, and seamlessly integrated. At Cherokee Nation, 
we have field offices with limited staff and finite resources. The 477 
Program ensures that staff can provide services from any program we 
offer, and instead of tracking expenses and staff time by program, 
staff spend time working with our citizens. I hope that the success of 
the 477 Program is replicated beyond employment and training.
    Thanks to the flexibility of the program, Cherokee Nation is also 
at the forefront of economic development innovation. Up to 25 percent 
of the program's funds can be used for economic development activities, 
and Cherokee Nation designs and implements customized training 
activities to address employer needs as they arise. We also utilize On-
the-Job Training (OJT) to assist a new or expanding businesses with 
employee training. In the past, Cherokee Nation has worked with Health 
Services to provide training in medical coding and dental assistant 
education; worked with the hospitality arm of Cherokee Nation 
Businesses to provide culinary training; and worked with our Child 
Development Centers to provide early childhood education training. 
Currently, we use funds for our Way Finders program at our new 
outpatient health facility, which gives our elders an employment 
opportunity and provides a service to those who use our facility.
    We were also recently approved for a National Health Emergency 
grant to focus on helping those impacted by the Opioid Crisis. Affected 
individuals gain employment assistance through Cherokee Nation. These 
jobs are not just any jobs, however-they are jobs in health care and 
opioid addiction treatment. We are training opioid-impacted Cherokee 
Nation citizens to meet the needs of other opioid-impacted Cherokee 
Nation citizens. We are creating our own innovative solutions to 
problems that other governments still struggle to address, thanks in 
large part to the 477 Program.
    The Cherokee Nation continues to build upon the success of the 477 
Program. In mid-October, I introduced, and the Council of the Cherokee 
Nation unanimously approved, the Career Readiness Act. The Career 
Readiness Act doubles Cherokee Nation's investment in training 
programs, such as construction, health, IT, and linemen training, 
increasing funding from $1 million to $2 million per year. The 477 
Program is an asset not only because it creates opportunities to 
streamline our services and spur economic development, but also because 
it allows us to expand our own capacity and use our resources to 
strengthen other workforce and economic development efforts.
Challenges Associated with the 477 Program
    In spite of the successes of the 477 Program, Cherokee Nation has a 
number of concerns following the release of the interdepartmental 
Memorandum of Agreement on December 20, 2018. Although the intent of 
Congress was clear in the 2017 amendments, and the Memorandum of 
Agreement was required by Congress only to facilitate the 
implementation of the act, the memorandum is in conflict with the 
spirit of the law and imposes more stringent requirements for the 477 
program integration than were intended by Congress.
    On July 3, 2019, Cherokee Nation submitted a request to integrate 
four additional programs into our existing 477 plan. One was the Native 
American Career and Technical Education Program from the Department of 
Education, which was approved. Two Dislocated Worker Grants (DWG) were 
approved for transfer because, according to the Department of Labor, 
``these grants are generally not competitive.'' Our fourth request, the 
Disability Employment Initiative (DEI), was denied based on the 
Department of Labor's ``interpretation of the statute as amended and 
Memorandum of Agreement signed in December 2018 by 12 Federal 
agencies.'' Our denial from the Department of Labor further states:

         Based on our interpretation of the statute, as amended, 
        Section 5(a)(1)(B) of the Indian Employment, Training and 
        Related Services Consolidation Act of 2017 [25USC3404(a)(1)(B)] 
        allows integration of programs that are formula-funded, or 
        based solely or in part on status as Indians under Federal law, 
        or a non-competitive process. However, the MOA Section 111.A.4 
        states that ``a competitive grant program may be integrated in 
        a 477 plan only when eligibility to compete for the grant 
        program is exclusive to Indian tribes.''

    The Department of Labor's, and the Memorandum of Agreement's, 
interpretation of Section 5(a)(1)(B) of the Indian Employment, Training 
and Related Services Consolidation Act of 2017 is wholly incorrect. 
Section 5(a)(1)(B) of the Indian Employment, Training and Related 
Services Consolidation Act of 2017 states:

         The programs that may be integrated to a plan approved under 
        section 8 shall only be programs under which an Indian tribe or 
        members of an Indian tribe (i) are eligible to receive funds 
        (I) under a statutory or administrative formula making funds 
        available to an Indian tribe; or (II) based solely or in part 
        on their status as Indians under Federal law; or (ii) have 
        secured funds as a result of a noncompetitive process or a 
        specific designation.

    First, Indian tribes or Indian tribal members must be among the 
entities eligible for funding, but the statute does not require that 
only Indian tribes or Indian tribal members can be eligible for the 
grant. Second, the funds must be available in part, but not solely, 
based on their status as Indians under Federal law. Third, if neither 
of these criteria are met, then the grant may be integrated into a 477 
plan if funds were secured as part of a noncompetitive process. 
Finally, Section 5(a)(2) further goes on to state that block grants, 
not exclusively formula-funded grants as stated by the Department of 
Labor, are also eligible for integration, regardless of whether the 
block grant ``is for the benefit of the Indian tribe because of the 
status of the Indian tribe or the status of the beneficiaries the grant 
serves.'' It is clear, then, that both the Department of Labor and the 
interdepartmental Memorandum of Agreement misinterpret and unduly limit 
the scope of the federal law intended by Congress to foster and 
strengthen economic development in Indian Country.
    The interdepartmental Memorandum of Agreement created unintended 
consequences that undermine the years of success the Cherokee Nation 
has had thanks to the 477 Program. The 477 Program has transformed the 
way we serve our tribal citizens, and the 2017 amendments to the law 
posed great promise and opportunity to further expand and integrate our 
programs. Although the Memorandum of Agreement is a barrier to our 
efforts, we remain steadfast in our commitment to integrating our 
programs and creating economic opportunity for our citizens.
Conclusion
    At the heart of this problem is the impact this Memorandum of 
Agreement has on the lives of the people we serve. The 
misinterpretation of statutes and the imposition of more stringent 
requirements by federal agencies threaten the livelihoods of people and 
tribes across Indian Country. We must remember the young mother who 
comes to the Cherokee Nation for help at her lowest point, with no 
driver's license, no childcare, and no job training, but leaves self-
sufficient, with a way to support herself and her young child. We must 
remember the countless others just like her, and we must make sure we 
can meet the needs of those who need it the most.
    As you work towards a solution that strengthens the 477 Program and 
removes the additional requirements imposed by the Memorandum of 
Agreement, I ask you to remember these stories and these concerns. The 
decisions that are made in this body acutely impact our tribal citizens 
and our communities, and we must ensure we do not turn our backs on our 
most vulnerable in their time of need. Thank you for the opportunity to 
testify, and I will be happy to answer any questions that you might 
have. Wado.

    The Chairman. Thank you, Principal Chief.
    President Andersen.

 STATEMENT OF HON. RALPH ANDERSEN, PRESIDENT/CEO, BRISTOL BAY 
                       NATIVE ASSOCIATION

    Mr. Andersen. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall, Senator Murkowski and distinguished Committee 
members. I am honored to be here today to testify in regard to 
the implementation of P.L. 102-477.
    My name is Ralph Andersen, and I am a tribal member of the 
village of Clark's Point in Bristol Bay, Alaska. I am the 
President and CEO of the Bristol Bay Native Association based 
in Dillingham.
    I have worked at BBNA for 21 years, since 1998, and have 
held my current position for 14 years, since 2005. BBNA is a 
nonprofit tribal consortium representing 31 federally 
recognized tribes in the Bristol Bay Region in southwest 
Alaska. Our geographic area is about the size of the State of 
Ohio.
    BBNA operates a variety of BIA services in our 477 Plan 
through a self-governance compact that has been in effect since 
1995. BBNA took advantage of P.L. 102-477 not long after we 
compacted BIA programs. That was before my time at BBNA.
    BBNA is a strong proponent of the principles behind self-
governance compacting in the 477 Program: consolidated funding 
streams, local control and flexibility, and reducing the 
administrative burden. Traditional grants, even non-competitive 
recurring grants, can be very difficult to operate from a 
remote, rural service provider like us tries to apply 
nationally designed programs in local conditions, and dealing 
with several funding agencies with differing rules. Traditional 
grants also tend to run up overhead costs and divert too much 
of an organization's energy to grant management as opposed to 
providing services. Self-governance compacting in the 477 
Program goes a long way toward resolving these matters.
    BBNA was already operating the programs that we rolled into 
our 477 Plan. In our experience, the increased efficiency of 
having a 477 Plan was great, but qualified, success. Very early 
on, we were able to combine services into a one-stop shop with 
a consolidated application process and program forms. We 
provide services without making multiple referrals or requiring 
multiple applications.
    The 477 Plan really did streamline service delivery. it 
also has administrative advantages. At the front end, the money 
is consolidated and added to our compact by the BIA, so we have 
fewer agencies to deal with. The reporting requirements are 
reduced; 477 requires one annual report as opposed to the 
quarterly reports which are typically required of traditional 
grants, and still required by DHHS.
    Not everything has worked smoothly. The 477 Program is not 
as flexible as self-governance compacting. The separate program 
regulations and policies remain in effect. Back in 2008, both 
DOI and the HHS decided to no longer use 638 contracts and 
compacts as a funding mechanism for distributing 477 funds. 
They eventually changed their minds.
    For years, there was disagreement between the tribes and 
the funding agencies, particularly HHS, about whether our 477 
plans had to be audited to the requirements of the plan or back 
to the separate program regulations or requirements of the 
different agencies. This was finally settled in favor of the 
tribes, essentially forced on the agencies by Congress.
    In more recent years, HHS would of course not allow BBNA to 
include TANF, Temporary Assistance for Needy Families, that 
program, to our 477 plan, even though we were already operating 
a program and it was clearly eligible. It was finally included 
during our last plan submittal in 2017, but we weren't 
authorized to receive the funding through our plan until 2018.
    As for reporting, the law now provides for annual reports 
to DOI to be shared with the Federal partners, but HHS won't 
honor the single reporting provision in the law. They want 
quarterly reports only to them, which we do, in order to 
maintain compliance and not jeopardize our program.
    Because of this and similar problems experienced by other 
tribes, plus the desire to expand the program and make it 
permanent, that led tribes nationally to request the 
legislation that became P.L. 115-93.
    As this Committee well knows, tribes nationally are 
extremely disappointed with the implementation of the 2017 law 
to date. The law was intended to expand 477 to other agencies 
and programs, make it more flexible and user-friendly for 
tribes, and to make 477 permanent.
    We are very displeased with what the Federal agencies have 
done with the MOA. One simply stunning decision was that DOI 
relinquished its approval role to the different agencies. The 
law is clear that DOI has the exclusive authority to approve 
plans. This is an appalling abdication of responsibility. Its 
approval is a key role of the law, DOI's approval.
    The MOA also appears to give the agencies almost unfettered 
ability to extend the plan review process by declaring a plan 
incomplete, and continually asking for more information.
    BBNA has not had to review its plan under the new rules of 
the MOA, and have taken a wait and see approach to adding 
programs to see how other tribes fare. We are concerned that 
expanding our plan to include additional programs would be an 
adversarial, bureaucratic nightmare. We fear that HHS and 
perhaps other agencies will attempt to roll back the gains we 
have already made.
    We urge DOI to reopen the MOA and start over, and make it 
consistent and in compliance with the law. We urge this 
Committee to take such steps as it can to ensure that that 
happens. Next time, the interests of the tribes should be at 
the table.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Andersen follows:]

 Prepared Statement of Hon. Ralph Andersen, President/CEO, Bristol Bay 
                           Native Association
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, Senator 
Murkowski, and distinguished Committee members. I am honored to be here 
today to testify in regard to the implementation of P.L. 102-477.
    My name is Ralph Andersen, and I am the President and Chief 
Executive Officer of the Bristol Bay Native Association (BBNA), based 
in Dillingham, Alaska. I am a tribal member of the village of Clarks 
Point, where I grew up. Clarks Point is a very a small community of 
about 60 people, 15 miles from Dillingham across the Nushagak Bay. I 
left my home and family when I was 13 years old to attend high school 
at a BIA boarding school in Oregon. After college, and after spending 
20 years in Barrow, Alaska, I came back home to Bristol Bay in 1998 
when I was 43 years old and began working for BBNA as its Natural 
Resources Program Manager. I became the President & CEO in 2005.
    BBNA is a non-profit tribal consortium representing 31 federally 
recognized tribes within the Bristol Bay Region, a geographic area in 
southwest Alaska the size of the State of Ohio. Our regional population 
is about 7,000 people, of whom roughly 70 percent are Alaska Native. 
BBNA operates a variety of service programs for our member tribes, 
including the full range of Bureau of Indian Affairs programs. We 
provide BIA services, and our 477 Plan, through a self-governance 
compact that has been in effect since 1995. BBNA took advantage of PL 
102-477 not long after we compacted BIA programs--before my time at 
BBNA.
Successes of PL 102-477
    Our organization is a strong proponent of the ideas behind self-
governance compacting and the 477 Program--consolidation of funding 
streams, local control and flexibility, and reducing the administrative 
burden. Traditional grants, even non-competitive recurring grants, can 
seem like straight jackets when a remote rural service provider tries 
to apply nationally designed programs in local conditions, when the 
dollar amounts may be small, and several funding agencies with 
differing rules may be providing funds for similar services. 
Traditional grants tend to run up overhead costs and divert too much of 
an organization's energy to grant management as opposed to providing 
services.
    BBNA was already operating the service programs we rolled into our 
477 Plan. In our experience the increased efficiency of having a 477 
Plan was a great, but qualified, success. Very early on we were able to 
combine services into a ``one-stop shop'' with a consolidated 
application process, and forms. We can provide services designed to 
remove barriers to employment, provide training, and assist with job 
placement without making multiple referrals or requiring multiple 
applications even though the particular services may come from 
different funding sources.
    The 477 Plan really did streamline service delivery. It also had 
advantages administratively. At the front end, the money is 
consolidated and added to our compact by the BIA, so we have fewer 
agencies to deal with. The reporting requirements are reduced except 
for DHHS; 477 requires one annual report as opposed to the quarterly 
reports which are typically required of grants and is still required by 
DHHS.
    Today, BBNA's 477 programs serve more than 500 clients annually, 
about half with short-term cash assistance and half with employment, 
training and education services designed to bring people into the 
workplace or improve the earning capacity of those already employed.
Problem Areas
    Not everything has worked smoothly. The 477 Program is not as 
flexible as Self-Governance Compacting; the separate program 
regulations and policies remain in effect. Back in 2008 both DOI and 
the DHSS decided to no longer use PL 93-638 contracts and compacts as 
the funding mechanism for distributing 477 funds. They eventually 
changed their minds.
    For years there was a disagreement between the Tribes and the 
funding agencies, particularly DHHS, about whether our 477 Plans had to 
be audited to the requirements of the Plan, or back to the separate 
program regulations and requirements of the different agencies. The 
Tribes eventually won those battles, through an appropriations rider 
and through negotiations essentially forced on the agencies by 
Congress.
    In more recent years DHHS would not allow BBNA to include the 
Temporary Assistance for Needy Families (TANF) in our 477 Plan, even 
though we were already operating the program and it was clearly 
eligible for inclusion. It was finally included during our last plan 
submittal in 2017, but we weren't authorized to receive the funding 
through our 477 Plan until 2018.
    As for reporting, 477 now provides for annual reports to DOI that 
are shared with the federal partners, but DHHS won't honor the single 
reporting provision in the law. They want quarterly reports only to 
them.
    It was because of these and similar problems experienced by other 
tribes across Indian County, plus the desire to expand the program and 
make it permanent, that led Tribes nationally to request the 
legislation that became P.L. 115-93, the Indian Employment, Training 
and Related Services Consolidation Act of 2017.
Problems with Implementing the 2017 Act
    As this Committee well knows, Tribes nationally are extremely 
disappointed in the implementation of the 2017 law to date. The law was 
intended to expand 477 to other agencies and programs, make it more 
flexible and user-friendly to tribes, and make the law permanent. While 
the law is now permanent, the federal agencies appear to have used the 
MOA required by Congress as a means of undercutting the purpose and 
intent of the law.
    BBNA has not had to renew its Plan under the new rules, and we have 
taken a ``wait and see'' approach to adding programs, to see how other 
Tribes fare. We would like to add programs we already operate including 
LIHEAP, Prisoner Reentry (a DOJ program), and some Vocational 
Rehabilitation services.
    We are very displeased with what the federal agencies have done in 
the MOA. One simply stunning decision that is that the BIA relinquished 
its approval role to the different agencies. The law is clear that the 
BIA has the exclusive authority to approve 477 Plans; yet the MOA gives 
the decision whether to include programs, and on what terms, to the 
various agencies. That is the same thing as approving the Plan. This an 
appalling abdication of responsibility by BIA--its approval role is a 
key structural component of the law!
    Otherwise, the MOA appears to limit the scope of 477 by limiting 
the kinds of programs included and by limiting the inclusion of 
competitive grant programs to those that are exclusively for tribes. It 
appears to give the agencies almost unfettered ability to extend the 
plan review process indefinitely by declaring a plan ``incomplete'' and 
asking for more information. This is not what Congress intended.
    BBNA is concerned that expanding our 477 Plan to include additional 
programs will be an adversarial, bureaucratic nightmare. Worse, we fear 
DHHS and perhaps other agencies will attempt to roll back the gains we 
have already made with our existing plan.
    We urge the BIA to reopen the MOA and start over to make it 
consistent with the law, and that this Committee take such steps as it 
can to ensure that happens. Next time, the interests of the Tribes 
should be at the table.
    Thank you again for the opportunity to testify.

    The Chairman. Thank you, President Andersen.
    Ms. Zientek.

 STATEMENT OF MARGARET ZIENTEK, CO-CHAIR, P.L. 102-477 TRIBAL 
                           WORK GROUP

    Ms. Zientek. Thank you for the opportunity to speak.
    [Greeting in native tongue.] My name is Margaret Zientek, 
also known as White Head Woman by my tribe, Citizen Potawatomi 
Nation.
    I am here today to represent all the tribes that could not 
be here in person. You heard there are 67 plans or tribal 
organizations representing 252 tribes. There is an additional 
10 who are in the process of being written or approved. There 
is an additional 74 that have expressed interest and are 
seeking technical assistance, representing over 120 tribes or 
tribal organizations.
    477 is critical in the development of effective and 
efficient tribal services. The amendment, 115-93, made it 
permanent and modified and expanded 12 additional agencies. It 
is unfortunate these agencies are throwing roadblocks in the 
way, such as the MOA.
    It is critical for the flexibility, for the tribes to be 
able to do what needs to be done, to meet the unique local 
needs. At the same time, it does reduce administrative 
redundancy by merging programs, financial reporting 
requirements, at least with the exception of one agency, and 
still meet GPRA.
    In the last three years, ending with 2018, Citizen 
Potawatomi Nation is happy to report that we have served over 
5,000 people through our 477 Program, plus an additional 4,000 
with child development services, our youth. The success of 477 
is nearly three decades old, and we serve in the highest 
unemployment areas in the Country.
    Through the MOA, we have concerns. Those concerns are many, 
but I will hit the highlights. The MOA was written entirely 
without tribal input and is simply inconsistent with the law. 
We submitted a redline for your review.
    The MOA unlawfully allows other agencies to make decisions 
that Congress specifically allocated to the Secretary of the 
Interior, ``shall have exclusive authority to approve or 
disapprove a plan.'' The MOA unlawfully restricts the purposes 
of the agency programs eligible for integration into 477 plans. 
The law is clear, tribes may consolidate Federal programs 
implemented for a variety of reasons or purposes, such as 
economic development, encouraging self-sufficiency, and to 
insert the word primary purpose of employment training is just 
wrong.
    You heard Senator Lankford refer to our Iron Horse project. 
The initial funding for feasibility studies was made possible 
because of 477.
    Additionally, the MOA gives agencies, it redefines 
competitive. Basically it says they must be the sole recipient. 
That is not what the law says. It gives authority to delay 477 
plan review through multiple extensions. There is only one 90-
day bite at the apple, if you will. And it does not allow for 
extension for waiver requests.
    The MOA allows agencies to deny waiver request for unlawful 
reasons. The law is very clear, effective agencies may only 
deny waiver requests if they provide written notice the waiver 
is inconsistent with the purposes of 477, or the provision of 
law from which the program included in the plan derives its 
authority.
    The MOA has already been used to deny additional programs 
into 477. The first was just a request for guidance or 
technical assistance, vocational rehabilitation program said, 
you can't do it.
    Number two, disability employment initiative. You heard 
from my friend here at the Cherokees, Department of Labor 
deemed it as not eligible because it is made available to other 
entities.
    The Child and Welfare Services under Title IV-B, subparts 1 
and 2, Department of HHS took the position, not primary purpose 
of employment training, therefore it cannot be included.
    Low-Income Home Energy Assistance Program, again, HHS, not 
eligible because it is not primary purpose of employment and 
training. Ninety percent of the people that we serve at Citizen 
Potawatomi Nation with LIHEAP, at a point in time survey, 90 
percent of those same LIHEAP clients were eligible or were 
receiving 477 services. It seems stupid that we would be 
spending money, administrative costs, to separate and run that 
program separately.
    In summary, I thank you for the bipartisan support that you 
have given us. I thank you, and I also thank the Division of 
Workforce Development, Terrence Parks and his staff. Very 
knowledgeable and work with us. It is unfortunate that people 
above him at the Department of Interior do not use that 
knowledge and help us.
    Thank you again for your time.
    [The prepared statement of Ms. Zientek follows:]

 Prepared Statement of Margaret Zientek, Co-Chair, P.L. 102-477 Tribal 
                               Work Group
    My name is Margaret Zientek, and I appear today as Co-Chair of the 
477 Tribal Work Group. I serve as the Assistant Director for the 
Citizen Potawatomi Nation Employment & Training Program, of which I am 
an enrolled citizen. I was also a tribal representative on the Pub. L. 
102-477 Administrative Flexibility Workgroup (AFWG), leading up to 
Congress' passage of the Indian Employment, Training, and Related 
Services Consolidation Act, Pub. L. No. 115-93 (``amended 477''), which 
made the P.L 102-477 demonstration project permanent, expanded it to a 
total of 12 federal agencies, and strengthened tribal rights while 
streamlining the agency approval process.
    Thank you for this opportunity to present written testimony 
concerning the flawed implementation of amended 477 since December 2017
    As Co-Chair for the 477 Tribal Work Group, I speak today on behalf 
of over 69 477 programs representing and serving over 252 Tribes across 
the United States. For the Committee's information, the Work Group 
knows of an additional 10 new plans currently being written, and 
another 74 tribes and consortia representing over 120 tribes have 
sought technical assistance in exploring 477. The Citizen Potawatomi 
Nation has operated a 477 program for almost two decades, and I have 
served in my national capacity for almost two decades. I have seen how 
much good this program can, and does, do for Tribes across the Nation. 
I believe in its potential, and am dismayed that the Memorandum of 
Agreement entered into by the twelve federal agencies has allowed 
certain actors within some of those agencies to turn the work of this 
Committee and Congress as a whole on its head by codifying the same 
harmful behaviors amended 477 was intended to curtail.
    The 477 Initiative established by Pub. L. 102-477 has been 
essential for the development of effective and efficient tribal 
services to increase employment and training in Indian country. The 
program, now permanent after decades as the model of a successful 
demonstration project, provides a critical foundation for maximizing 
the effectiveness of diverse tribal employment, training and related 
service programs that would otherwise be available to Tribes only by 
dealing with a panoply of federal agencies issuing multiple contracts 
or grants.
    The law allows for the consolidation of funding streams from the 
Departments of Agriculture, Commerce, Education, Energy, Health and 
Human Services, Homeland Security, Housing and Urban Development, 
Interior, Justice, Labor, Transportation, and Veterans Affairs. Thanks 
to the 477 Initiative, these programs are consolidated into a single 
tribal plan. By this means, the 477 program provides critical 
flexibility for Tribes and tribal organizations to tailor the 
consolidated activities into a single new program that best meets the 
unique local needs of their respective communities.
    At the same time, it eliminates administrative redundancy by 
merging program and financial reporting requirements, all while still 
adhering to the Government Performance Results Act's stringent 
accountability standards. Tribes, alone, decide which programs or 
combination of programs to combine into a 477 plan. This structure 
affords maximum local flexibility and full accountability, which 
accounts for the fact that the 477 Initiative has to date received the 
highest OMB PART rating of any program in Indian Country.
    The Citizen Potawatomi Nation's 477 Program: The Citizen Potawatomi 
Nation (CPN) has participated in the 477 Initiative since 1996. We have 
been able to achieve enormous administrative savings and provide 
extended services to our participants as a direct result of the Act's 
provisions. In 2016, 2017, and 2018, CPN's 477 program has served over 
5,000 people seeking employment, training, and social services, as well 
as more than 4,000 families that received child development services. 
We see the success in our community, and in tribal communities across 
the country.
    For almost three decades, P.L. 102-477 has offered success to some 
of the areas with highest unemployment in the country. Because of 477, 
Tribes and tribal organizations have produced outcomes far beyond those 
of their neighboring States because they have been able to consolidate 
the resources of diverse programs in ways that make the most sense at 
the local level. They have moved tribal members from cash assistance to 
unsubsidized employment. And they have accounted for 477 program 
activities according to the plan approved by the Department of the 
Interior.
    Amended 477 addressed specific tribal concerns, but the 
implementation of the law has undermined Congress' intent to address 
those concerns. In April 2014, I testified before this Committee and 
asked that Congress make specific changes to the proposed legislation 
that eventually became amended 477 to address Tribes' concerns. Tribes 
asked that the legislation include a mechanism to identify eligible 
employment, training and related social service programs from other 
federal agencies on which Tribes and tribal organizations might draw to 
supplement their efforts and to add to their plans. To do this, Tribes 
asked that the scope of the original demonstration program be expanded 
in two ways: (1) to cover a wider range of departmental and agency 
funds, including competitive funds, formula funds, block grants, and 
designated funds; and (2) by specifying a wider range of funding types, 
including funds for job training; welfare to work and tribal work 
experience; creating or enhancing employment opportunities; higher 
education; skill development; assisting Indian youth and adults to 
succeed in the workforce; encouraging self-sufficiency; familiarizing 
individual participants with the world of work; facilitating the 
creation of job opportunities; and any services related to these 
activities.
    Tribes asked that the 477 Act also be amended to address timely 
approval of 477 plans, regulation waivers and dispute resolution, so 
that there are clear rules and clear forums for resolution of 
disagreements about the 477 Act. This Committee, and Congress as a 
whole, listened to those concerns and amended the legislation to 
address them. We sincerely thank you for those efforts.
    However, as pointed out in the letter sent by amended 477's 
cosponsors in July of this year, the implementation of the amended law 
has done the exact opposite. Congress:

         sought to stop agencies from introducing problems into the PL 
        477 program that reduced its effectiveness. Among other things, 
        agencies had been requiring additional criteria for program 
        eligibility not found in the law and additional reporting 
        prohibited under the law. We made clear through the language of 
        the bill that these things are unlawful-laying out clear 
        program eligibility criteria, mandating that only the 
        Department of the Interior has authority to determine program 
        eligibility, and stating that a Tribe need only submit one 
        annual report for a PL 477 plan.

    And as the Cosponsors explained, amended 477 has thus far been 
implemented in such a way--through the Memorandum of Agreement entered 
into by all twelve agencies--that re-introduces the specific problems 
that reduced the program's effectiveness in the first place.

    We share the Cosponsors Concern.

    The MOA was written entirely without tribal input, and is simply 
inconsistent with the amended 477 law. Under amended 477, Congress 
required the 12 impacted agencies to enter into an interdepartmental 
memorandum of agreement (MOA), with the Secretary of the Interior 
serving as lead agency, by December 18, 2018. \1\ On December 20, 2018, 
the Secretary of the Interior released the executed MOA with a Dear 
Tribal Leader Letter. This MOA, which was negotiated behind closed 
doors and without any meaningful tribal input, does not faithfully 
implement the law. The P.L. 102-477 Tribal Work Group has produced a 
detailed redline of the MOA explaining the legally-problematic sections 
and providing language that would bring the MOA into compliance with 
the law. That redline is attached as a supplement to this testimony. In 
brief though:
---------------------------------------------------------------------------
    \1\ 25 U.S.C.  3410(a)(3).

  <bullet> The MOA unlawfully allows other agencies that to make 
        decisions that Congress specifically allocated to the Secretary 
        of the Interior. The law is clear that ``The Secretary [of the 
        Interior] shall have exclusive authority to approve or 
        disapprove a plan submitted by an Indian tribe.'' \2\ The law 
        spells out the specific areas in which the other agencies have 
        authority to provide input, \3\ but the MOA unlawfully 
        transfers critical decisionmaking authority from Interior, 
        where expertise regarding the 477 program resides, to the other 
        agencies. Interior then will rubber-stamp those decisions, and 
        as we have seen with the denials already published, that is 
        exactly what has happened. Ending this practice was one of the 
        underlying reasons the new law was needed.
---------------------------------------------------------------------------
    \2\ 25 U.S.C.  3410(a)(3). U.S.C.  3407(a)
    \3\ See 25 U.S.C.  3406(a)(1), (b)-(i)

  <bullet> The MOA unlawfully restricts the purposes of the agency 
        programs eligible for integration into a 477 plan: the law is 
        clear that tribes may consolidate federal programs implemented 
        for a variety of purposes, such as ``economic development'' and 
        ``encouraging self-sufficiency.'' \4\ The MOA unlawfully 
        restricts eligible programs to those where ``job training'' or 
        ``employment'' is the ``primary'' purpose of the program and 
        where the federal statute authorizing the program clearly 
        states employment and training is its purpose. This provision 
        deeply undermines the amended law.
---------------------------------------------------------------------------
    \4\ U.S.C.  3404(a)(1)(A).

  <bullet> The MOA unlawfully limits eligibility for programs funded 
        through competitive funding and block grants: the law allows 
        tribes to consolidate competitive funds into a plan so long as 
        the funds are from a source that fits into one of the allowable 
        categories of funding. \5\ The MOA unlawfully restricts this 
        eligibility to programs where Federally-recognized tribes and 
        their members are the sole eligible recipients or the program's 
        authorizing legislation has a PL 477 designation. This 
        restriction is found nowhere in the law. Additionally, the MOA 
        does not list block grant funds as an eligible type of funds.
---------------------------------------------------------------------------
    \5\ U.S.C.  3404(a)(1)(B), (a)(2).

  <bullet> The MOA unlawfully gives agencies the authority to delay 477 
        plan reviews through multiple extensions: the law allows 
        Interior to ask for written consent from a tribe for an 
        extension of up to 90 days on its statutory time limit to 
        review that tribe's submitted plan, \6\ and it does not allow 
        extensions for waiver requests. \7\ The MOA provides for 
        multiple extensions throughout the plan and waiver review 
        process, allowing agencies to delay and extract additional 
        concessions from tribes. Ending this type of behavior was an 
        important consideration in the amendment process. And multiple 
        extensions lessens the effects of amended PL 477's mandate that 
        a PL 477 plan \8\ or waiver request \9\ is deemed approved if 
        not acted on within the statutory timeframe for approval.
---------------------------------------------------------------------------
    \6\ U.S.C. 3407(c).
    \7\ See 25 U.S.C.  3406.
    \8\ U.S.C.  3407(b)(5).
    \9\ U.S.C.  3406(e)(3).

  <bullet> The MOA Allows Agencies to Deny Waiver Requests For Unlawful 
        Reasons: the law allows for tribes to request waivers of 
        applicable statutory, regulatory, or administrative 
        requirements. \10\ Affected agencies may only deny waiver 
        requests if they provide written notice that waiver is 
        inconsistent with the purposes of PL 477 or ``the provision of 
        law from which the program included in the plan derives its 
        authority that is specifically applicable to Indians.'' \11\ 
        The MOA directs an agency to deny a waiver request if a tribe 
        refuses to approve a time extension--entirely the opposite of 
        the statutory language.
---------------------------------------------------------------------------
    \10\ U.S.C. 3406(b)-(i).
    \11\ U.S.C.  3407(d), (e).

    The MOA includes numerous other issues which undermine the intent 
of Congress to provide for a smooth, efficient, and streamlined plan 
and waiver review process led by the Department of the Interior.
    The MOA has already been used as the basis for unlawful denials of 
the inclusion of programs into Tribes' 477 plans. The work group is 
concerned that individual agencies may communicating denials or de-
facto denials directly to Tribes, rather than through the Division of 
Workforce development in BIA, so there may be more than the following 
examples. However, what we do know is that affected agencies have 
denied the inclusion of at least four programs into 477 plans based on 
eligibility criteria unlawfully added though the MOA, rather than in 
statute, and that due to the restrictions placed on DOI in the MOA, BIA 
has had to rubber-stamp these denials rather than applying its own 
expertise as to the includability of the programs:

  <bullet> Vocational Rehabilitation Program: The Department of 
        Education took the position the program is not eligible because 
        it receives competitive funding made available to entities 
        other than federally recognized tribes, relying on the MOA's 
        provision unlawfully creating this eligibility criterion.

  <bullet> Disability Employment Initiative: The Department of Labor 
        took the position the program is not eligible because it 
        receives competitive funding made available to entities other 
        than federally recognized tribes, relying on the MOA's 
        provision unlawfully creating this eligibility criterion

  <bullet> Child and Family Service Title IV-B, Subparts 1 and 2: The 
        Department of Health and Human Services took the position the 
        program is not eligible because it is not an employment or job 
        training program, relying on the MOA's provision unlawfully 
        creating the eligibility criterion that requires the primary 
        purpose in the program's authorizing statute to be employment 
        or training, despite amended 477's broader purpose requirement.

  <bullet> Low-Income Home Energy Assistance Program (LIHEAP): The 
        Department of Health and Human Services took the position the 
        program is not eligible because it is not an employment or job 
        training program, relying on the MOA's provision unlawfully 
        creating the eligibility criterion that requires the primary 
        purpose in the program's authorizing statute to be employment 
        or training.

    Summary and Conclusion. The Pub. L. 102-477 program has been one of 
the most successful Indian programs in the history of the government-
to-government relationship, and is one of the purest examples of the 
potential implicit in the self-determination policy. The Tribal Work 
group has been honored to work closely with Congress to make 
improvements to the program and to help it reach that potential. We are 
deeply grateful for this Committee's unwavering bipartisan support for 
the Program.
    Federal agency implementation of the amended 477 program has served 
to undermine both Congress' and Tribes' efforts, and I appreciate the 
opportunity to speak to those issues today.
    Attachment
 Indian Employment, Training and Related Services Consolidation Act of 
                                  2017
                  interagency memorandum of agreement
BETWEEN THE PARTIES
    1. Department of Agriculture
    2. Department of Commerce
    3. Department of Education
    4. Department of Energy
    5. Department of Health and Human Services
    6. Department of Homeland Security
    7. Department of Housing and Urban Development
    8. Department of the Interior
    9. Department of Justice
    10. Department of Labor
    11. Department of Transportation
    12. Department of Veterans Affairs

    Whereas, pursuant to the Indian Employment, Training, and Related 
Services Demonstration Act of 1992, Pub. L. No. 102-477 (October 23, 
1992) (``the 1992 Act''), Congress authorized a temporary demonstration 
project (477 Initiative) that allowed Federally recognized Indian 
tribes to integrate employment and training-related, formula-funded 
Federal grants into a single plan (477 plan) with a single budget and a 
single reporting system to improve the effectiveness of those services, 
reduce joblessness in Indian communities, and serve tribally determined 
goals consistent with the policy of self-determination, while reducing 
administrative, reporting, and accounting costs.
    Whereas, pursuant to the Indian Employment, Training, and Related 
Services Consolidation Act of 2017, Pub. L. No. 115-93 (December 18, 
2017), Congress amended the 1992 Act to make the demonstration project 
permanent, to reduce administrative, reporting, and accounting costs in 
the 477 Initiative, and to otherwise expand and improve the Pub. L. 
102-477 Program.
    Whereas, pursuant to Section 11 of Pub. L. No. 115-93, Congress 
directed the above named agencies to negotiate and execute a memorandum 
of agreement (MOA) to implement Pub. L. No. 115-93. The purpose of this 
MOA is to set forth the basic functions and relationships of the 
Parties as authorized under Pub. L. No. 115-93.
    Whereas, this MOA is intended to facilitate coordination and 
collaboration of the Parties in implementing the Act. The Department of 
the Interior is the lead agency under the Act and has authority to 
approve or disapprove a plan which the Secretary is authorized to 
exercise to ensure compliance with the Act. This MOA is not intended to 
confer any right upon any Indian tribe, private person, or 
organization.
    Now, therefore, the Parties agree as follows:
I. Definitions
    A.  ``The Act'' refers to the Indian Employment, Training, and 
Related Services Demonstration Act of 1992, Pub. L. No. 102-477 
(October 23, 1992), as amended.
    B.  ``The Secretary'' refers to the Secretary of the Department of 
the Interior. Certain actions identified in the Act and throughout this 
agreement lie with the authority of the Secretary but may be carried 
out in practice by the Assistant Secretary--Indian Affairs through 
offices, including the Bureau of Indian Affairs (BIA) within the 
Department of the Interior (``Interior'').
    C.  ``Parties'' refers to all agencies named by Congress to 
negotiate and execute an MOA.
    D.  ``Affected agency'' is an agency that has a program that has 
been identified by an Indian tribe to be considered in its 477 plan.
    E.  ``Indian tribe'' refers to the term as defined in 25 U.S.C.  
3402(2) of the Act, which includes tribal organizations.
II. Effect of MOA on Authorities of Parties
    A.  Nothing in this MOA alters the statutory authorities or any 
other authorities of the Parties. This MOA is intended to facilitate 
coordination and collaboration of the Parties in implementing the Act.
III. Policy
    The Act authorizes an Indian tribe to integrate in a 477 plan 
existing funds that a tribe would otherwise receive under the authority 
of an individual program. The statutory purpose and authority of the 
underlying programs being consolidated in an Indian tribe's 477 plan 
must align with the criteria set forth in 25 U.S.C.  3404.

    A. Programs Affected

        1.  25 U.S.C  3404(a) provides that only programs for which 
        implementing one or more of the following purposes is an 
        authorized use of Federal funding support provided under that 
        program may be integrated into an Indian tribe's 477 plan:

          a. job training;
          b. welfare to work and tribal work experience;
          c. creating or enhancing employment opportunities;
          d. skill development
          e. assisting Indian youth and adults to succeed in the 
        workforce;
          f. encouraging self-sufficiency;
          g. familiarizing individual participants with the world of 
        work;
          h. facilitating the creation of job opportunities;
          i. economic development; or
          j. any services related to the activities described above.

        2.  A list of programs historically considered for 477 plan 
        inclusion prior to the passage of Pub. L. No. 115-93 is 
        included as an appendix to this MOA. This list, which is from 
        the Federal agencies participating in the 477 demonstration 
        initiative, is provided for information and is not all-
        inclusive. Indian tribes can propose to include Federal 
        programs not listed in the appendix. At the time of the signing 
        of this MOA, not all Parties have identified programs that meet 
        the eligibility requirements of 25 U.S.C.  3404.

        3.  As required by 25 U.S.C.  3407, the BIA has exclusive 
        authority to approve or disapprove a plan submitted by an 
        Indian tribe, including making any decisions that would 
        necessarily lead to the full or partial disapproval of a plan. 
        Such decisions include, but are not limited to, decisions 
        relating to whether an organization is an Indian tribe as 
        defined by 25 U.S.C.  3402, or whether a program is eligible 
        for inclusion in a 477 plan. However, under 25 U.S.C.  3406(h) 
        the head of the affected agency has final authority to resolve 
        disputes related to waiver requests.

        4.  BIA and the affected agencies further understand that under 
        25 U.S.C.  3404(a)(1)(B), and (a)(2), 477 plans may include 
        only those programs in which an Indian tribe or members of an 
        Indian tribe are eligible to receive funds:

          a.  under a statutory or administrative formula making funds 
        available to an Indian tribe;
          b.  based solely or in part on their status as Indians under 
        Federal law;
          c.  as a result of a noncompetitive process or a specific 
        designation; or
          d.  by block grant funds provided to an Indian tribe, 
        regardless of whether the block grant is for the benefit of the 
        Indian tribe because of the status of the Indian tribe or the 
        status of the beneficiaries the grant services.

        5.  Competitive grant programs do not base eligibility on a 
        statutory or administrative formula and do not award funds as a 
        result of a noncompetitive process or designation. Thus, in 
        accordance with 25 U.S.C.  3404(a)(1)(B)(i)(II), unless 
        provided as part of block grant funding, a competitive grant 
        program may be integrated in a 477 plan only when eligibility 
        for the funding under that grant program is based solely or in 
        part on status as an Indian tribe or Indian as defined at 25 
        U.S.C.  3402. Competitive grant programs for which an Indian 
        tribe is eligible for funding based solely on other factors, 
        such as an Indian tribe's status as a non-profit organization, 
        are not eligible for inclusion in a 477 plan.

        6.  Competitive grants may also be included after an award is 
        made by the affected agency pursuant to its competitive process 
        if there is a specific 477 designation in the grant program's 
        authorizing legislation that the program is eligible for 
        consolidation under the Act.

    B.  Indian Self-Determination and Education Assistance Act (ISDEAA) 
(25 U.S.C.  5301 et seq.)

        1.  Neither P.L. 102-477 nor P.L. 115-93 affect the 
        applicability of ISDEAA to program funds approved to be 
        included in a 477 plan. As has been the practice, and as is 
        authorized by 25 U.S.C.  3412(b), BIA shall permit Federal 
        funds that the relevant agency has transferred to BIA to be 
        transferred to eligible Indian tribes pursuant to existing 
        contracts, compacts, or funding agreements awarded pursuant to 
        ISDEAA. However, including a program not otherwise eligible for 
        ISDEAA in a 477 plan, and transferring funds pursuant to an 
        existing contract, compact, or funding agreement, does not make 
        the program eligible for contracting under ISDEAA and does not 
        make the provisions of P.L. 93-638 applicable. Conversely, if 
        an underlying program is eligible for ISDEAA, including the 
        program in a 477 plan does not eliminate the applicability of 
        any provision of ISDEAA.

    C. Requirements for Incorporating Programs into a 477 Plan

        1.  Each affected agency must take into account its individual 
        statutes, regulations, and policies when consulting with the 
        BIA regarding an Indian tribe's proposed plan.
        2.  Consolidation of programs approved by affected agencies for 
        inclusion in a 477 plan will take effect upon approval of the 
        plan.
IV. Roles and Responsibilities of Parties
    A. Federal Points of Contact

        1.  The Secretary of the Interior, the Attorney General, and 
        the Secretaries of the other affected agencies shall each 
        appoint a liaison to be the point of contact to address any 
        concerns related to implementation of the Act and to attend 
        meetings of the Parties. BIA shall circulate the contact list 
        to the Parties and provide updates as necessary.

    B. Plan Review

        1.  Generally, 90 days after receipt of a plan, the Secretary 
        will approve or deny the plan. If a plan includes a waiver 
        request, the Department of the Interior and the affected 
        agencies will follow the process for review described in 
        Section V.
        2.  Upon receipt of an Indian tribe's 477 proposed plan, BIA's 
        Division of Workforce Development (DWD) will transmit to the 
        Indian tribe a formal acknowledgement of receipt of the 
        proposal. The 90-day statutory timeframe for approving or 
        denying the plan begins on the date of the Secretary's receipt.
        3.  Within 2 days of receipt of a tribe's 477 proposed plan DWD 
        will conduct an initial review to determine if the plan appears 
        to be complete, ensuring inclusion of the minimum required 
        documents (e.g., tribal resolution, budget, and narrative scope 
        of work, waiver requests). If the plan appears to be complete, 
        DWD will forward it to the affected agencies within 2 days of 
        receipt of the plan.
        4.  If a plan is determined to be incomplete, DWD will work 
        with the tribe for up to 15 days in order for the tribe to 
        submit the necessary additional documents to make the plan 
        complete. Once the proposed plan is complete, DWD will forward 
        it to the affected agencies.
        5.  For the first year of implementation, BIA shall forward 
        what appears to be a complete plan to all Parties, and after 
        the first year to just the affected agencies.

          a.  Interior and affected agencies shall develop a suggested 
        template for Indian tribes to use in submitting and specifying, 
        as an addendum to their proposed 477 plans, any specific 
        waivers the Indian tribe believes are necessary to implement 
        the proposed 477 plan including a citation or specific 
        reference to the particular statute, regulation, provision, 
        administrative requirement, or policy or procedures to be 
        waived.

        6.  If after the affected agencies conduct their initial 
        review, the plan still does not include the required documents, 
        the affected agency shall inform DWD, and DWD will coordinate 
        with the Indian tribe to ensure the needed document(s) are 
        submitted in a timely manner. Once all required documents are 
        submitted, the plan is complete.

        7.  Within 30 days of receipt of the complete plan from DWD, 
        DWD shall schedule a call with the affected agencies to discuss 
        the status of the plan review and identify any issues that need 
        to be resolved.

        8.  The affected agencies shall have 60 days (from the time the 
        affected agencies received transmittal of the complete plan) to 
        review and provide comments back to DWD on the Indian tribe's 
        complete plan and on whether the affected agency requires any 
        additional information. Should DWD not receive feedback from an 
        affected agency within the 60-day timeframe, DWD staff will 
        contact the affected agency and request a status update on the 
        plan review. If additional information is required, DWD will 
        facilitate communication between the affected agency and the 
        Indian tribe to resolve the issue(s).

        9.  At any time after receiving an Indian tribe's plan from 
        DWD, but not beyond the 90- day timeframe for the Secretary's 
        approval or denial of the plan, unless the Secretary has 
        received the express written consent of the Indian tribe for an 
        extension, the affected agency may provide comments to DWD and/
        or the Indian tribe concerning programs it operates that are 
        proposed to be included in the Indian tribe's plan.

        10.  If an affected agency is of the opinion that the Secretary 
        may not approve inclusion of a program in an Indian tribe's 
        plan because inclusion would not meet the requirements 
        described in 25 U.S.C.  3405 during or at the conclusion of 
        the 60-day review period, the affected agency shall communicate 
        to DWD its reason(s) for that opinion. At this point, DWD will 
        facilitate communication between the affected agency and the 
        Indian tribe in an attempt to resolve the reason(s) for the 
        affected agency's opinion prior to the expiration of the 90-day 
        timeframe.

        11.  If the affected agency and Indian tribe are unable to 
        resolve the issue(s), the affected agency must transmit to DWD 
        a written opinion supporting its position that inclusion of the 
        program would not meet the requirements described in 25 U.S.C. 
         3405. Once DWD receives the affected agency's written 
        opinion, it will review the opinion to determine whether 
        inclusion of the program would not meet the requirements 
        described in 25 U.S.C.  3405. DWD will then communicate its 
        determination in a written memorandum to the affected agency. 
        For the first year, Interior shall disseminate the memorandum 
        to all Parties for informational purposes and to ensure 
        consistency throughout the government.

        12.  If the Secretary agrees with an affected agency that a 
        plan or portion of a plan is not approvable because it does not 
        meet the requirements described in 25 U.S.C.  3405, or if it 
        otherwise finds that a plan or portion of a plan is not 
        approvable because it does not meet the requirements described 
        in 25 U.S.C.  3405, the Secretary shall transmit to the Indian 
        tribe a denial letter containing a specific finding that 
        clearly demonstrates, or that is supported by a controlling 
        legal authority, that the plan does not meet the requirements 
        described in 25 U.S.C.  3405.

          a.  When the Secretary denies a plan or denies inclusion of a 
        program or programs in a plan, the denial letter shall notify 
        the tribe that (1) it can have a hearing on the record with the 
        right to engage in full discovery relevant to any issue raised 
        in the matter before the affected agency's appropriate 
        administrative appeals body in accordance with 25 U.S.C.  
        3407(d)(1)(C); or (2) it can bring a civil action in Federal 
        court in accordance with 25 U.S.C.  3407(d)(2). If a tribe 
        chooses a hearing before the Department of the Interior's 
        administrative appeals body, and the appeals body finds that 
        the tribe's plan does not meet the requirements described in 25 
        U.S.C.  3405, the tribe can appeal to Federal district court 
        on the objections raised in accordance with 25 U.S.C.  
        3407(d)(1)(C).

        13.  Pursuant to 25 U.S.C.  3407(b)(4), if a plan is denied 
        solely on the basis that a request for a waiver that is part of 
        the plan has not been approved (or is subject to dispute 
        resolution) under 25 U.S.C.  3406, the Secretary shall, upon a 
        request from a tribe, grant partial approval for those portions 
        of the plan not affected by the request for a waiver.

        14.  An Indian tribe must receive approval or denial of its 
        plan before the expiration of the 90-day timeframe from the 
        Secretary's receipt of a proposal, unless the tribe gives the 
        Secretary express written consent before the expiration of the 
        90-day timeframe for an extension of time for up to an 
        additional 90 days. If a decision is not provided to the Indian 
        tribe, or the Indian tribe does not provide a written extension 
        of time to the Secretary before the expiration of the 90-day 
        timeframe, the Indian tribe's plan is considered to be 
        approved. However, at any time during the 90-day timeframe, DWD 
        may request one extension of time from the Indian tribe, 
        provided that the extension may not be for more than 90 days. 
        An Indian tribe's denial of a request to extend the 90-day 
        review timeframe may not be used as a reason to deny an Indian 
        tribe's proposed plan.

        15.  In the event that a tribe submits a late plan (i.e., their 
        current plan is set to expire in less than 90 days), BIA may 
        extend the current approved plan up to 120 days and the tribe 
        may use the currently awarded funds and/or carryover funds to 
        continue operations. BIA will issue formal notification to the 
        tribe when granting an extension, copying all affected 
        agencies. BIA will not transfer any funds and the tribe will 
        not draw down any funds associated with the new plan until the 
        plan has been approved.

          a.  To prevent such situations from arising, affected 
        agencies will keep track of plan dates and notify DWD of plan 
        expiration dates 180 days before a plan expires. DWD will 
        notify tribes of upcoming plan expiration dates at least 150 
        days before the plan expires and encourage them to submit a new 
        plan so that the parties have at least 90 days to review it.

V. Waivers
    The Department of the Interior and each affected agency shall 
cooperatively implement the waiver provisions during the plan review 
process consistent with section 3406 of the Act.

    A. Requesting Waivers

        1.  In consultation with Interior, a participating Indian tribe 
        may request that the head of each affected agency waive any 
        statutory, regulatory, or administrative requirement, policy, 
        or procedure. Indian tribes should provide as much information 
        as possible about which statutory, regulatory, or 
        administrative requirement, policy, or procedure they need to 
        be waived and why the waiver is being requested.

        2.  Affected agencies may also identify waivers of any 
        applicable statutory, regulatory, or administrative 
        requirement, policy, or procedure necessary to enable an Indian 
        tribe to efficiently implement a 477 plan.

        3.  Procedures for forwarding the plan and accompanying waiver 
        requests are articulated in section IV.B.3-5. As necessary, 
        once the affected agency receives the Indian tribe's waiver 
        request, the Indian tribe and affected agency may work together 
        to ensure the waiver request is complete.

        4.  For the first year of implementation of this Act, for 
        informational purposes and to ensure consistency throughout the 
        government, BIA will share all waiver requests with all Parties 
        at the same time that it is forwarding the waiver requests to 
        the affected agencies for consideration.

        5.  Pursuant to 25 U.S.C.  3406(e)(1), the 90-day waiver clock 
        begins when an affected agency receives an Indian tribe's 
        waiver request.

        6.  There is a 90-day deadline for the head of the affected 
        agency for which a waiver has been requested to decide whether 
        to grant or deny the request. Interior and all affected 
        agencies agree that the date on which the waiver request is 
        received by the affected agency will be the day from which the 
        90-day deadline to deny the waiver shall be calculated. The 
        affected agency will inform DWD and the Indian tribe the date 
        on which the 90-day timeline for approval begins. See 25 U.S.C. 
        <l-arrow>3406(e)(1); (e)(3).

    B. Granting or Denying Waivers

        1.  Each affected agency shall waive any applicable statutory, 
        regulatory, or administrative requirement, regulation, policy, 
        or procedure promulgated by the agency that has been identified 
        but shall not grant a waiver if the waiver is inconsistent 
        with:

          a. The purposes of the Act; or

          b.  The provision of the law from which the program included 
        in the plan derives its authority that is specifically 
        applicable to Indians. See 25 U.S.C.  3406(d)(2).

        2. After an affected agency's waiver determination, BIA shall 
        either:

          a.  Include the waiver determination as part of the 477 plan 
        approval process; or

          b. Proceed in accordance with V.C.6.

        3.  Interior will quarterly disseminate to all Parties all 
        final waiver determinations.

    C. Timeline for processing waivers

        1.  The head of an affected agency shall make a waiver 
        determination no later than 90 days after the affected agency 
        receives a waiver request. See 25 U.S.C.  3406(e).

        2.  If the head of an affected agency grants a waiver, that 
        affected agency shall provide written notice of the 
        determination to BIA, and BIA shall inform the Indian tribe. 
        For the first year, within two days after an affected agency's 
        initial waiver decision, the affected agency shall disseminate 
        such waiver determination to all other parties for 
        informational purposes and to ensure consistency throughout the 
        government.

        3.  If the head of an affected agency denies the waiver, the 
        affected agency shall provide BIA a written notice of the 
        denial, and reasons for the denial, no later than 30 days after 
        making such determination, and BIA shall inform the tribe. See 
        25 U.S.C.  3406(f).

        4.  If the head of the affected agency does not make a decision 
        within 90 days after receipt of the waiver request, the waiver 
        is considered granted. See 25 U.S.C.  3406(e)(3).

        5.  If an affected agency denies a waiver, BIA may approve a 
        477 plan for the requesting Indian tribe for all programs 
        unaffected by the waiver denial. BIA may also approve a 477 
        plan for the program for which the waiver has been denied if 
        the affected agency notifies BIA that the plan is approvable in 
        the absence of the waiver.

        6.  After consulting with the affected agency, BIA shall 
        provide notice to the tribe so it can revise the plan if 
        necessary. Such revisions may include, but are not limited to, 
        removing the related program from the 477 plan or including the 
        program with specific requirements/conditions in the 477 plan 
        to reflect the decision.

        7.  When tribes elect interagency dispute resolution in 
        response to a waiver denial, the head of an affected agency 
        shall notify non-affected agencies of the dispute in question.

    D. Interagency Dispute Resolution Process

        1.  If an Indian tribe elects to participate in the interagency 
        dispute resolution process, the following process will be 
        followed:

        a.  The Secretary shall initiate the process by contacting the 
        participating Indian tribe and requesting notification within 5 
        business days on whether the tribe desires to conduct either a 
        face-to-face meeting or conference call with the Secretary and 
        the head of the affected agency, or their designees, to resolve 
        the dispute.

        b.  Upon receipt of the Indian tribe's notification, the 
        Secretary shall begin communication with both the tribe and the 
        head of the affected agency to ensure the conference call or 
        in-person meeting is conducted within 14 calendar days of the 
        tribe's notification.

        c.  The Interagency dispute resolution session(s) will allow 
        equal and ample opportunity for the BIA, the Indian tribe, and 
        affected the affected agency to engage in discussion of the 
        waiver request and provide documentation supporting their 
        position.

        d.  Should all agree, the Secretary may schedule additional 
        sessions up to and including the 30th day after the dispute 
        resolution process was initiated.

        e.  Whether the additional sessions are face-to-face meetings 
        or conference calls is at the discretion of the participating 
        Indian tribe and the affected agency.

    E. Final authority to resolve issue

        1.  If the dispute is resolved, BIA shall distribute the 
        outcome of the final resolution to all affected agencies within 
        ten days.

        2.  If the dispute resolution process fails to resolve the 
        dispute, the head of the affected agency shall have the final 
        authority to resolve the dispute. See section 3406(h) of the 
        Act.

        3.  If the head of the affected agency determines that the 
        waiver must be denied, the affected agency will issue a written 
        statement to BIA.

        4.  The Secretary shall provide the requesting Indian tribe 
        within 5 days after the dispute is resolved:

          a. A written statement of the final decision on the waiver 
        request; and

          b.  If the Secretary of the Interior has determined that a 
        program is not approvable to be included in a 477 plan without 
        an agency granting the waiver at issue, notice of the right to 
        file an appeal in accordance with IV.B.12.1. Once the waiver 
        request is resolved, the tribe may amend its 477 plan, as 
        necessary, to include the resolution.

        5.  If the waiver request was approved, then the plan shall 
        include the affected program. The plan may explicitly state 
        which portions of statute, regulation, or requirements have 
        been waived.

        6.  If the waiver request was denied, then BIA shall provide 
        notice to the tribe so it can revise the plan accordingly. Such 
        revisions may include, but are not limited to, removing the 
        related program from the 477 plan or including the program with 
        specific requirements/conditions in the 477 plan to reflect the 
        decision.
VI. Transfer and Award of Funds
    A.  Affected agencies shall inform BIA and the Indian tribe of the 
amount of Federal funds to be transferred by the affected agency to BIA 
for the award to the tribe for its approved 477 plan.

    B.  At the request of an Indian tribe, BIA shall award Federal 
funds to an eligible Indian tribe pursuant to an existing contract, 
compact, or funding agreement awarded pursuant to Title I or IV of the 
ISDEAA, as amended, within 45 days of BIA's receipt of the funds. The 
following language shall be included in contracts, compacts, or funding 
agreements used to transfer Federal funds not eligible for contracting 
under ISDEAA (funds to which Pub. L. 93-638 is not applicable):

         In accordance with 25 U.S.C. sections 3411(b) and 3412(b), as 
        has been the practice, BIA permits Federal funds for [insert 
        title of grant program] that the relevant agency has 
        transferred to BIA to be transferred to eligible Indian tribes 
        pursuant to existing contracts, compacts, or funding agreements 
        awarded pursuant to ISDEAA. However, including a program not 
        otherwise eligible for ISDEAA in a 477 plan, and transferring 
        funds for that program to an Indian tribe pursuant to an 
        existing contract, compact, or funding agreement, does not make 
        the program eligible for contracting under ISDEAA and does not 
        make the provisions of Pub. L. 93-638 applicable to that 
        program.

    C.  When a tribe elects to receive funds included in a 477 plan 
outside of the ISDEAA, the funds must still be provided from BIA to the 
tribe within 45 days of BIA's receipt of the funds.

    D.  Affected agencies shall transfer funds to BIA no later than 30 
days after the date the apportionment to the affected agency has been 
approved by the Office of Management and Budget (OMB) per 25 U.S.C.  
3412(a). If a program's funding is subject to a continuing resolution, 
transfers will be based on the availability of the funds as outlined in 
the continuing resolution.

    E.  Some programs are subject to a Secretary's one percent 
discretionary transfer. This may result in withholding some of the 
funds or if funds have already been transferred, then the funds subject 
to BIA's discretionary transfer would be returned to the affected 
agency.

    F.  In the event of an overpayment, BIA shall return the excess 
funds to the affected agency within 60 days of being notified that an 
overpayment was made. Overpayments may be the result of rescissions, 
Secretary's discretion for programs subject to a transfer, or 
miscalculations.
VII. Oversight
    A. Reports

        1.  BIA shall oversee an Indian tribe's administration of a 
        plan. BIA shall develop and use a single system and format for 
        comprehensive Federal oversight and monitoring to ensure that 
        tribes operate Federal programs according to their approved 
        plans.

        2.  BIA shall, in consultation with the Parties, within 30 days 
        from the signing of this MOA:

          a.  Develop a single OMB-approved statistical report format 
        applicable to the programs in approved plans, for Indian tribes 
        to report on activities described in their plans.

          b.  Develop a single OMB-approved financial report format for 
        Indian tribes to report on plan expenditures.

        3.  As per 25 U.S.C.  3410(b)(2) and (3), the report format, 
        together with records maintained by each participating Indian 
        tribe, shall contain information sufficient to determine 
        whether the Indian tribe: (1) has complied with the 
        requirements of the approved plan; (2) determine the number and 
        percentage of program participants in unsubsidized employment 
        during the second quarter after exit from the program; and (3) 
        provide assurances to each applicable Federal department or 
        agency that the Indian tribe has complied with all directly 
        applicable statutory and regulatory requirements that have not 
        been waived.

        4.  The report format shall not require a participating Indian 
        tribe to report on the expenditure of funds expressed by fund 
        source or single agency code transferred to the Indian tribe 
        under an approved plan but instead shall require the Indian 
        tribe to submit a single report on the expenditure of 
        consolidated funds under such plan.

        5.  Affected agencies will be given the opportunity to ask 
        follow-up questions about the reports.

        6.  BIA shall distribute to affected agencies, or post online, 
        statistical and financial reports within 30 days of the end of 
        the reporting period.

        7.  Affected agencies shall, within 30 days of notification 
        that program and expenditure reports have been posted or made 
        available, inform BIA of any issues (e.g., any indication that 
        program funds were not used for allowable purposes or other 
        errors in reporting).

VIII. Audits
    A.  BIA shall safeguard Federal funds, in consultation with each 
affected agency transferring funds for a plan, pursuant to the 
requirements of the Single Audit Act of 1984, as amended, including 
review of all audit reports and completion of all close-out duties for 
the plans, by:

        1.  Requiring Indian tribes or tribal organizations that expend 
        less than $750,000 in Federal funds during a fiscal year to 
        submit a certification that they are not required to submit an 
        audit to the Division of Internal Evaluation and Assessment and 
        the Awarding Official or Education Resource Officer.

        2.  Providing the OMB with annual updates to the audit 
        Compliance Supplement for all programs included in a plan 
        (e.g., annually updating the 477 Cluster and ensuring all 
        programs included in a plan are listed in the Cluster).

    B.  BIA is the lead agency and is responsible for implementation of 
the Act. BIA is responsible for the receipt and distribution of all 
funds covered by a plan approved under the Act. As such, BIA is 
responsible for rendering a management decision on any Single Audit Act 
findings (e.g., resolving audit findings, preventing future findings) 
involving Federal funds that BIA has transferred to Indian tribes to 
support their plans.

    C.  Affected agencies shall advise BIA of any facts or 
circumstances that will assist in safeguarding Federal funds. BIA will 
work with each of the affected agencies to take appropriate action 
after discussing such facts or circumstances.

IX. Monitoring
    A.  On-site monitoring will occur by the BIA once every three years 
or as needed. BIA shall submit monitoring reports to affected agencies 
within 90 days of completion of the on-site monitoring visit.

X. Technical Assistance

    A.  BIA shall provide technical assistance to Indian tribes related 
to audit findings or program activities.

    B.  When determined to be feasible, affected agencies shall inform 
BIA of technical assistance activities (including those that may 
include site visits) made available to Indian tribes through the 
originating program.
XI. Forum Meetings
    A.  Parties shall attend an annual meeting which includes 
participating Indian tribes, to be co-chaired by a representative of 
the President and a representative of participating Indian tribes. See 
25 U.S.C.  3410(a)(3)(B)(i).

    B.  BIA shall convene a forum comprised of the affected agencies 
and participating Indian tribes to identify and resolve inter-agency 
conflicts and conflicts between the Federal government and Indian 
tribes in the administration of the Act. See 25 U.S.C.  
3410(a)(3)(B)(iii).
XII. Annual Review
    A.  Affected agencies shall collaborate on BIA's annual review of 
the achievements under the Act, including the number and percentage of 
program participants in unsubsidized employment during the second 
quarter after exit from the program, and any statutory, regulatory, 
administrative, or policy obstacles that prevent participating tribes 
from fully and efficiently carrying out the purposes of the Act. See 25 
U.S.C.  3410(a)(3)(B)(ii).
XIII. Public Statements
    A.  The Parties shall coordinate all public statements and other 
disclosures with regard to this MOA. No Party shall undertake any 
publicity regarding the MOA unless the Parties consult in advance on 
the form, timing, and contents of any such publicity, announcement, or 
disclosure.

    B.  Nothing in this section limits the Parties' ability to respond 
to grantee inquiries regarding the Act, individual 477 proposed plans, 
or this MOA.
XIV. Duration and Ability to Extend
    A.  This MOA becomes effective on the date of final signature. This 
MOA will be reviewed by the Parties every five years. At any time, any 
Party, upon 90-day written notice to the other Parties, may suggest 
amending this MOA. Any amendments to the MOA require mutual agreement 
of the Parties. The MOA may be terminated by mutual agreement of the 
Parties upon thirty (30) days advance notice of intent to terminate, or 
if the Act is repealed or revoked.
XV. Commitment of Funds
    A.  Nothing in this MOA constitutes a commitment or obligation of 
funds. All activities under this MOA are subject to the availability of 
funds.
    Appendix A
    This is a list of programs that tribes have historically been able 
to include in 477 plans. These are examples shared in this MOA for the 
information of the new Parties by the Parties participating in the 477 
demonstration prior to passage of Pub. L. No. 115-93.

----------------------------------------------------------------------------------------------------------------
                        Department                                            Eligible Program
----------------------------------------------------------------------------------------------------------------
Health and Human Services                                  Temporary Assistance for Needy Families
Health and Human Services                                  Native Employment Works
Health and Human Services                                  Child Care and Development Fund
Health and Human Services                                  Community Service Block Grant
Interior                                                   BIA: Job Placement and Training
Interior                                                   General Assistance
Interior                                                   BIE: Johnson O'Malley
Interior                                                   Higher Education
Interior                                                   Adult Education
Labor                                                      WIOA Section 166, Indian and Native American Programs
----------------------------------------------------------------------------------------------------------------


    The Chairman. Thank you, Ms. Zientek.
    At this time, I am going to turn to Principal Chief Hoskin. 
I know you have to leave here shortly. For any questions that 
anyone has for the Principal Chief, let's do those first so he 
can depart. We can try to get as many of those questions 
covered as possible. I would turn to Senator Lankford first.
    Senator Lankford. Thank you. I appreciate that. I know you 
have to catch your flight.
    Let me ask, you make a request that $58.6 million and to 
combined six different grants. How would that be used, and what 
would that look like? That is the current request at this 
point. How would that be used?
    Mr. Hoskin. Senator, it is a broad range of programs. But I 
had mentioned the effort to combat opioid addiction. We are 
doing things from the treatment standpoint, but this gives us 
the opportunity, just by way of one example, to get folks who 
are ready to get into the workforce, but then they can turn 
their experience and the skills we give them into helping 
others who are struggling with addiction.
    We have people who have other barriers to employment, 
whether it is physical barriers, which would have been the plan 
with the disability grant that we did not get to incorporate, 
to overcome those barriers. With our new effort to send people 
to technical training schools, we can fill needs for our new 
health care system, which in addition to the high-level 
professional positions, we need a lot of people with technical 
health training. Because we have 850 jobs to fill in this new 
facility that you toured. To do that, we need to put our people 
to work. They want to go to work.
    But these funds, running it through the efficient 477 
Program, will help us do that. We have our work cut out for us. 
That is one of the reasons you see that spike in spending, is 
because particularly the demand for health care professionals.
    Senator Lankford. So just a quick clarification there, and 
I want to watch everyone else's time as well. The 477 for you, 
is it, you mentioned administrative barriers.
    Mr. Hoskin. Right.
    Senator Lankford. Is it easier to access, is it forms to 
fill out, is it less bureaucracy in the back? What makes the 
biggest difference? All these programs you are eligible for, to 
be able to use individually. So what makes it work for you?
    Mr. Hoskin. It is so much easier when a Cherokee citizen 
who has needs comes into the Cherokee Nation and can go to one 
counselor and get a one stop shop for their needs met right 
there. And then that counselor and the people above that staff 
member are not hampered by these various bureaucratic reports 
that we have to make. So one report, one budget makes it 
seamless up the chain, so that the front-line staff worker can 
help that citizen with a range of opportunities. It is 
wonderful to see someone come into, say, our human services 
department, because they can't make it to the end of the month. 
And this one case worker suddenly changes their life and they 
are able to chart a new future with a career, because they can 
seamlessly do that.
    So when we cut out the bureaucratic hurdles, and we can 
overcome the barriers of the MOA, we can really effectively 
change people's lives in a very efficient way.
    Senator Lankford. Thank you. Thank you, Mr. Chairman.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman. Chief Hoskin, as 
you mentioned in your testimony, the Department of Labor denied 
Cherokee's request to include the disability improvement 
initiative grant in your 477 plan. The department's decision 
was based on a provision in Section 3 of the December 2018 MOA.
    My understanding is that the Nation and the 477 Work Group 
disagreed with this decision. Can you briefly summarize the 
basis of your objection to the MOA's limitation of 477 
eligibility to competitive grants that are exclusively 
available to federally recognized tribes?
    Mr. Hoskin. Certainly. And I would direct the Committee's 
attention to Section 5A(1)(b) of the Indian Employment Training 
and Related Services Consolidation Act. The problem here is the 
MOA misinterprets the law and narrows the eligibility for the 
grants to those that are exclusively available to Native 
American recipients. That is not what the law says, it is not 
what the Congress intended. And it also excludes opportunities 
that are granted on a competitive basis with other entities.
    So the agencies and the Administration has just narrowed 
the focus too much and cost us this opportunity to again change 
the lives for our citizens. So if we can accomplish something 
to overcome this hurdle imposed by the MOA, we will be able to 
do that.
    Senator Udall. Thank you very much for that answer.
    Chief Hoskin, tribes and Congressional authors of the 2017 
amendments believe the MOA does not comply with the statute in 
the following ways. Could you tell me if you agree with these 
ways that have been indicated? I think there are about five of 
them.
    Transfers DOI's authority to determine 477 program 
eligibility to other departments. Would you agree with that?
    Mr. Hoskin. I agree with that. That is an abdication, as 
the other witness mentioned.
    Senator Udall. Restricts the universe of eligible programs 
by narrowing the 477 Program's purpose.
    Mr. Hoskin. Yes, and we experienced it.
    Senator Udall. Limits eligibility of competitive and block 
grant programs.
    Mr. Hoskin. Yes, we experienced that.
    Senator Udall. Allows departments to extend the review 
deadlines for 477 plan evaluations.
    Mr. Hoskin. I agree. Needless delay.
    Senator Udall. And allows departments to deny waiver 
requests.
    Mr. Hoskin. I agree.
    Senator Udall. And all of those in violation of the statute 
and the intent that most of us up here, I think, were trying to 
direct the department.
    Mr. Hoskin. And all avoidable, Mr. Vice Chairman, with the 
consultation that I know the Congress intended.
    Senator Udall. Yes. Thank you very much.
    The Chairman. Thank you, Principal Chief. I understand you 
do have to catch a flight. I think those were the main 
questions people wanted to get in so you are able to go when 
you need to.
    At this point, we will turn to five-minute rounds of 
questions. I will begin with Director Bighorn.
    Both President Andersen's and Ms. Zientek's testimony 
mentions the memorandum of agreement signed by the Federal 
agencies, Section 9 of the 2017 amendments gives the Secretary 
of the Interior exclusive authority to approve or disapprove a 
477 plan. Instead, Interior has given away this authority to 
Federal agencies who now have final determination authority on 
which programs are eligible for inclusion in a 477 plan. Why 
did the Interior give away the exclusive authority that 
Congress provided in Section 9?
    Mr. Bighorn. Senator, thank you for your question. The 
approval process still remains within the Department of 
Interior. We read the statute and it doesn't give us, the 
Secretary of the Interior, the authority to interpret the 
regulations and statutes of any of the Federal partners.
    As we talked about today, the MOA was developed in 
consultation and coordination with the 11 other agencies with 
11 other missions coming together to try and provide a 
consistent document that would provide not only to the Federal 
partners but also hopefully to the tribes the process for 
getting a plan approved.
    So we still reach out to the Federal partners, as I said in 
my testimony, we coordinate with the Federal partners to 
determine whether or not the programs being proposed for 
inclusion into a 477 plan meet the statutes and regulations of 
the various other 11 agencies.
    So we still have the authority to approve and disapprove of 
those plans. But we do consult with the other 11 agencies on 
the plans that are submitted by the tribes.
    The Chairman. Do you want to commit to reworking the MOA so 
that it accurate implements the law? Or do you believe a 
legislative fix is necessary?
    Mr. Bighorn. As I said before, Senator, we interpret the 
law to state that it doesn't give the Secretary of the Interior 
the authority to interpret the statutes and regulations. The 
MOA allows any party to come forward with a proposed amendment 
within 90 days to consider a proposed amendment. I believe the 
Secretary of the Interior, as we as the Assistant Secretary, is 
willing to consider any amendments that may come forward from 
the other parties.
    The Chairman. Are you willing to rework the MOA, is my 
question.
    Mr. Bighorn. Are we willing to rework the MOA?
    The Chairman. Rework the MOA. Are you willing to rework the 
MOA?
    Mr. Bighorn. If Congress, certainly we are willing to 
provide technical assistance to the Committee. And if the 
Committee says that we need to, if there is a law passed that 
says we need to go back and revisit the MOA, then I am sure we 
would go back.
    The Chairman. But my question is, are you willing to rework 
the MOA, or do you feel it requires legislation to change the 
MOA?
    Mr. Bighorn. I think that the MOA, legislation would help 
to go back and rework the MOA. Because the MOA, in the 
legislation that we received there was no guidance on how to go 
about developing and producing the MOA.
    Okay. You should consult at BIA. I want an answer, are you 
willing to rework the MOA, or do you feel you need legislation 
from us in order for you to do that. You may need to consult 
with others on that, but I want an answer to that question.
    Mr. Bighorn. Senator, I don't think I will be able to give 
you an accurate answer to that question today. I certainly can 
go back and visit and get back to you.
    The Chairman. I understand you may need to do some 
consulting, but I want an answer to the question. Thank you.
    Ms. Zientek, in your testimony you highlighted several 
areas where the MOA fails to comply with the law or is 
otherwise contrary to the intent of Congress. What is the most 
important part of the memorandum, in your opinion, that needs 
correcting?
    Ms. Zientek. Well, I would have to say it is three parts. 
First off is get rid of the insertion of the word primary 
employment and training as a purpose. Primary is not in the 
law. The second thing that I would say is also with the 
definition of competitive, where solely, the law says solely or 
in part. So that needs to be corrected. And the third is the 
abdication of authority by the Secretary of Interior, giving 
away the authority to make that decision of approval plans.
    The Chairman. You are co-chair of the Work Group. You would 
be willing to continue to work with us as we work to address 
these things?
    Ms. Zientek. I would be very glad to work with you.
    The Chairman. President Andersen, in your testimony you 
mentioned you have been the President and CEO since 2005, and 
that the Bristol Bay Native Association has utilized the 477 
Program since about 1995. So quite some time. Based on your 
considerable experience, can you speak to how more local 
control in the administration of the Federal programs has 
helped provide individuals in your community with long-term 
employment?
    Mr. Andersen. Thank you for the question, Senator. I think 
the best way I can answer that is through statistics. Just over 
the years, we have averaged, the population of my region is 
somewhere between 5,000 and 7,000 people. We serve an average 
of about 600 clients a year through 477. The latest statistics 
that we had completed show that we have 549 clients that were 
served, and those that terminated services, there were 65 
adults, 61 youth and 120 cash assistance, for a total of 246.
    We have had five adults enter unsubsidized employment, 
while 27 achieved other employment outcomes. Other employment 
outcomes include clients who already have jobs but need 
assistance to maintain them. We have had 52 youth in 2018 
complete the work experience program. Our cash assistance, it 
kind of varies from year to year. But 65 achieved miscellaneous 
education outcomes.
    New jobs, we have created five new jobs. We have helped 28 
businesses, provided them assistance. And we have helped six 
vets, just in 2018, with service at a high priority. The 
childcare assistance program is probably one of the most 
important parts of 477 that allows our people to go back to 
work or continue working who lack childcare assistance. Without 
assistance, they would have to probably give up work.
    So in the years that I have been involved with BBNA, this 
is one program that we have seen grow. We don't disagree with 
the BIA that this is an important program, we agree with them 
totally. We did backflips when this law passed, because it so 
much met all of our needs, all of the needs not only within 
Bristol Bay, but throughout the State of Alaska.
    Then the MOA comes along, and it kind of makes us wonder 
whether or not the rule of law applies to BIA, or the 
Department of Interior, or the 12 agencies that are listed in 
the MOA. Because there are five areas that are completely not 
in compliance with the law. How clear, how much more clear do 
you have to be with the word exclusive? Exclusive authority. 
How much more clear do you need to be when you say, programs 
that are granted are solely or partially for tribes?
    I don't understand, and I am being candid here, because it 
is just real frustrating having to deal with this since 
December. We are afraid even to try to submit any new plans, 
because we don't want to jeopardize what we have already. We 
already operate LIHEAP, we don't want to jeopardize our 477 
plan and our LIHEAP funding by trying to include it in the 477, 
into our plan. Because it would be denied. That has been the 
experience so far.
    It is just really frustrating that here we have, we want to 
live by the rule, we want to help BIA to do their job more 
efficiently, more effectively. We are the boots on the ground. 
We are carrying out the programs that they would have had to 
carry out themselves. We are doing it for them. We want to be 
as successful as they would be, and even more, because we are 
serving our communities and our tribes.
    Our people look to us for leadership. If they have programs 
denied, it is really, really frustrating. We want to add more 
programs. But we are afraid to do that.
    We recently, thanks to Senator Murkowski and Senator 
Sullivan, Bill Barr came to Alaska. When he returned from 
visiting our communities up there, he declared a crisis in 
public safety. During the AFN convention, the Alaska Federation 
of Natives Convention, he announced about $42 million would be 
given to Alaska, or provided to Alaska. And we understand that 
this might be to the C-TAS, the Consolidated Tribal Assistance 
Solicitation program that DOJ offers. And we don't want to add 
those, because we don't want to jeopardize funding, we don't 
want to jeopardize approvals.
    I have a sense that the funds will come to the C-TAS 
program, but we are afraid to take the chance under the new 
rules of having our plans continually considered in complete 
and questions continually asked for more information.
    The Chairman. Thank you. Vice Chairman Udall.
    Senator Udall. Thank you, Chairman Hoeven. I want to echo 
the Chairman's question and statement. I think he said very 
strongly, the department must commit to amending the MOA. Mr. 
Bighorn, I would even use the legal term shall commit to 
amending the MOA. I think that is tremendously important, 
especially when you hear from all the tribes and nations how 
this has impacted them.
    It is my understanding that the negotiation process for the 
December 2018 MOA expanded nearly nine months, giving all 
agencies ample opportunity to provide input on each provision. 
However, according to your testimony, Ms. Zientek, these 
months-long negotiations took place ``behind closed doors and 
without any meaningful tribal input.'' Can you confirm that 
tribes were not consulted during the drafting of the MOA at 
all?
    Ms. Zientek. That is correct. We were called to a meeting, 
and said, we are going to be releasing the MOA the next week, 
that is the extent of tribes being spoken to about it.
    Senator Udall. Do you feel the lack of meaningful tribal 
involvement in the original MOA drafting process contributed to 
the implementation issues described here today?
    Ms. Zientek. I do. I believe that it was left to the front-
line individuals that were causing us issues, and why Congress, 
why this bipartisan law passed was to fix those issues. So they 
found a way to put them back in the MOA and cause those same 
issues again, or even more.
    Senator Udall. Mr. Bighorn, I hope you and the department 
agree that consulting is the bedrock of a strong government-to-
government relationships with the tribes. How will the 
department improve its 477-related consultation efforts moving 
forward?
    Mr. Bighorn. Thank you for the question, Senator. Yes, we 
certainly support self-determination, self-governance. That has 
been one of the bedrocks of --
    Senator Udall. And consultation.
    Mr. Bighorn. And consultation, yes.
    Senator Udall. The crux of this question is about 
consultation.
    Mr. Bighorn. In consultation, obviously, the Department of 
Interior has a consultation policy on major issues that come 
forward. In this particular instance, of course, leading up to 
the drafting of the MOA and the signing of the MOA, the statute 
basically told the 12 agencies who were subject to this law 
that, you need to get together and develop an MOA. To the best 
of my knowledge, the statute didn't put any consultation 
processes in place.
    When we went forward and drafted the MOA, and I was part of 
many of the meetings, it was an effort by the 12 agencies to 
come forward and put together an implementation plan. Since we 
were responsible as Federal departments to implement the 477 
amendments, we came together to try to make it, like I said 
earlier, a consistent document that hopefully would be 
understood by all individuals who were participating with the 
477 Program.
    As we move forward, working with the 477 Tribal Work Group, 
we have these annual meetings to go forward and talk about 
these issues and have some meaningful consultation and 
conversation, really, with the Tribal Work Group. We have those 
in place, the law puts those in place, a yearly meeting. But we 
also have an opportunity to meet with them at the national 
meetings and regional meetings. So we have continuing dialogue 
with the Tribal Work Group on issues of importance to them and 
concern to them on the 477 plan.
    Senator Udall. And you are committed to moving forward with 
consultation?
    Mr. Bighorn. We will move forward with consulting with them 
at these meetings on issues that come up, yes.
    Senator Udall. For over two decades, the 477 Program has 
helped tribes cut through the complicated tangle of Federal 
programming to address development. That silo-busting is the 
key to success. But workforce development is not the only 
policy initiative that is spread out across multiple Federal 
agencies. As all of you know, public safety, behavioral health, 
environmental protection, are just a few of the areas where 
tribes have to try to cobble together a hodgepodge of Federal 
grants to meet community-driven goals.
    Ms. Zientek, should Congress look at applying the 477 model 
to other areas, and if so, what policy areas do you think would 
benefit the most?
    Ms. Zientek. Most definitely. I would look in terms of 
Indian Health Service and some other agencies as well. I can 
see the HPOG, Health Professionals Opportunities Grant, was 
actually a program being operated by Cook Inlet Tribal Council. 
That program is a perfect fit in 477, or using the 477 model in 
other agencies. I know our tribe is working on a self-
governance panel for that very purpose.
    Senator Udall. Thank you, Ms. Zientek. I yield back, Mr. 
Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Bighorn, I want to go back to a comment that you just 
made. You indicated to the Vice Chairman that the implementing 
legislation that says that the 12 agencies shall come together 
and establish this MOA didn't require in its language any 
consultation, so you didn't feel like you needed to do it.
    One of the things that I am all over every agency that 
comes to my office, when they are talking to me about their 
relationship with our tribes in Alaska, I say, this 
consultation should not be something that you are directed to 
do. Consultation should be something that is inherent, that as 
an agency you go to the tribes, you have that consultation. We 
all know that some agencies are better than others.
    I am a little bit surprised to think that when you were 
talking about this approach, this consolidated approach to 
efficiency, that when the 12 agencies come together to talk 
about how we are going to make this work with the tribes that 
nobody thought that maybe consultation at that point would be 
important, even if it was not directed and outlined in the law 
 
    So was it an oversight, do you think? Or in hindsight--I do 
you understand now that there are these efforts to bring in 
that level of consultation. Was it because it simply wasn't 
outlined that nobody felt that you needed to do it?
    Mr. Bighorn. Senator, thank you for the question. When we 
were looking at developing the MOA, we approached it from the 
perspective of, Congress has asked us to come up with an MOA to 
implement the program from the Federal perspective. And there 
was no discussion at that point as to tribal consultation, 
because again, it wasn't something that was required within the 
law.
    Also, the 12 agencies that were around the table felt that 
this was, the charge for us to come up with the implementation 
of the program, how we were going to implement the program.
    Senator Murkowski. How the agencies were going to implement 
it. Well, actually, you are not implementing it. Because as Mr. 
Andersen has said you all are the ones that are implementing 
it. You are taking the obligation and the responsibility that 
these agencies have for these programs, and asking the tribes 
to do that work for you, and they are happy to do it. We have 
clearly heard that. They are eager to do it. Because they 
believe strongly that they can get greater efficiency, greater 
flexibility, truly make this work better for all those that 
they serve.
    So it just seems to me that there was a real failure here 
on the consultation part, if you are basically saying, here, 
you take over this obligation, the fact that there was not a 
level of consultation.
    Let me ask, though, because I am a little bit confused on 
the MOA being reopened. You have heard here requests for the 
BIA to reopen the MOA. In a letter that we received October 
15th, from Assistant Secretary Sweeney, she says, during this 
meeting, September 20th, during this meeting the tribes asked 
the Federal agencies in attendance to consider reopening the 
MOA for modifications. The Federal agencies in attendance 
committed to considering the tribes' request.
    So that was September. This is a letter that we received in 
October. We are now in November. The question to you was just 
asked by the Chairman, whether there is a consideration for 
reopening of the amendments. And you have asked for time to go 
back and seek further discussion with others.
    It seems to me that it has been out there by the agencies 
now for a couple of months to noodle over whether or not you 
are looking to reopen this. You have indicated that there is a 
process for amendments to be submitted. But is that the same 
thing as reopening the MOA? Are they two different processes?
    Mr. Bighorn. Senator, the process I outlined earlier is in 
the MOA, and allows any of the 12 other agencies who are 
parties to the MOA to propose an amendment. Now, what you are 
talking about is revisiting the MOA or reopening it.
    Senator Murkowski. Right.
    Mr. Bighorn. That is something separate.
    Senator Murkowski. Right.
    Mr. Bighorn. And as I said earlier, I will need to go back 
and visit with my leadership to determine if that is something 
that is going to happen.
    I do know that, as you say, we have had the letters from 
the Work Group and letters from Congress asking us to consider 
some of the inconsistencies that have been provided from the 
tribes' perspective. We are still reviewing those letters and 
certainly considering those.
    But I don't have any information today to indicate that we 
would be reopening the MOA. I would have to go back again and 
visit with my leadership and get back to you on that.
    Senator Murkowski. Okay. I would just again repeat for the 
record here that at the meeting on September 11th, again, 
according to this letter from Assistant Secretary Sweeney, the 
issues were discussed related to the MOA, and then on September 
20th, a couple weeks later, at the meeting of the Indian tribes 
and Federal agencies, during that meeting, again, the ask was 
made to consider reopening the MOA for modifications. We are 
now here in November.
    So it seems to me that there has been a lot of opportunity 
for the agencies to be discussing this. In the meantime, what 
you have happening, and I hope that you have heard this 
clearly, and I hope that the other agencies have heard this 
clearly, what is happening is the good work that needs to be 
done on the ground is being halted. Decisions are being made 
not to move forward with additional programs. What Mr. Andersen 
has just outlined, with what is coming to many of the tribes 
right now through these grants that are being made available to 
us through Department of Justice, there is a real hesitancy to 
figure out, okay, how can we be most efficient in getting these 
funds out to those who need them.
    That is who we should be thinking about. But we are not, 
because we are saying, we need to be careful here, because we 
don't want to jeopardize this, we don't want to be in a 
situation where a program is going to be denied. So what you 
have happening, because of these inconsistencies within this 
MOA, because of these denials that Ms. Zientek has outlined so 
very, very clearly, you have a process that was designed to be 
more efficient becoming twice less efficient because of where 
we are right now.
    So my ask to you is to go back to those that you are 
working with on this and convey to them, certainly this 
Senator's urgency, and I would hope this Committee's urgency, 
that you look at this very critically, very closely, and very 
quickly. Because in the meantime, the efforts that need to be 
made to allow for the good benefits of 477 to proceed are being 
hung up. If there is any question about that, I would ask that 
they read the transcript of what Mr. Andersen has just outlined 
in his response to Chairman Hoeven, because he articulated 
very, very clearly what his happening as a consequence of this 
confusion that has been created, these impediments that have 
been created by this MOA.
    There are too many of us that have worked far too long on 
this to be kind of stalled out right now. I hate that you have 
to be the bearer of my critical review here, but all we are 
trying to do is to fulfill the responsibilities that again, the 
agencies have, and you have good people that are prepared to 
take it up and to do so in a manner that makes good sense with 
good efficiency and better management of the Federal dollars 
that are at stake. It is our own Federal agencies that are not 
allowing us to be as efficient as we need to be.
    So I would ask you to take that message back to your team.
    Mr. Bighorn. Senator, yes, I will do that. Thank you.
    Senator Murkowski. Thank you. And I thank you, Ralph, for 
coming all this way, and for your very clear statement.
    Mr. Andersen. Thank you, Senator, and thank you for your 
leadership.
    Senator Murkowski. Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Murkowski.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Let me just echo the concerns that you have heard today. 
Absolutely, I think that this MOA can be addressed without 
legislation.
    But what I am hearing, just so I understand, is you know 
about the concerns that have been addressed by our tribal 
communities, but no action was taken to address those concerns 
through the MOA, right now, as we sit here today.
    Mr. Bighorn. That is correct, at this point.
    Senator Cortez Masto. For purposes of just reviewing the 
MOA, let me just say this, it can be terminated by mutual 
agreement of the parties upon 30 days' advance notice of intent 
to terminate. Thirty days, done, boom, you can start all over 
again if you so choose to do.
    But I do have concerns that the intent here, and again, I 
am not going to belabor this because you have heard it over and 
over from my colleagues, and I absolutely agree with them, is 
to work with the tribal communities, not to hinder, not to put 
barriers up, not to prevent them from getting these funds.
    But let me ask you, Ms. Zientek, prior to the amendment and 
the expansion, there were four agencies working together. At 
that time, were you seeing similar types of inconsistences with 
the laws with respect to the interpretation from those initial 
four agencies?
    Ms. Zientek. Well, three were players, the fourth never 
came to the table, the Department of Ed, even though it was 
allowable by law. There was an MOA in place since 2005, just 
needed to be brushed off and expanded.
    HHS had thrown up several roadblocks. Because of those 
roadblocks, that is why we came to Congress to please fix the 
law, and why P.L. 115-93 was passed was to fix those issues. We 
still have some interpretations where HHS believes a tribe must 
operate a program for a full year before they can put in 477. I 
know that is hitting the Cherokee Nation with the TANF program. 
Terrible expense to set up all the accounting and financial 
requirements and training of their staff to turn around and 
throw it out the door a year later.
    So yes, there has been, yes, there are still roadblocks, 
that is why P.L. 115-93 got passed.
    Senator Cortez Masto. In the original MOA, with the four 
agencies, was there tribal consultation when that was created?
    Ms. Zientek. Actually, I wasn't around for the very first 
one. But I was around, I have been 23 years with the tribe and 
477. And for the second one, yes, the predecessor to Spike, Ms. 
Lynn Forcia, did actually reach out to tribes a copy of the 
MOA, and we were able to make comments and put that forward.
    We provided, actually, that copy of the MOA back to the 
agencies in February, I believe, of 2018, through Hankie 
(phonetically) Ortiz before she was relocated.
    Senator Cortez Masto. Thank you. So let me just be very 
clear, and I hope, Chairman and Ranking Member, I hope you 
don't have to come back before us, and I hope we don't have to 
do legislation, because I do think it is unnecessary. Just 
reading through the MOA myself, I don't think you need to be an 
attorney to find the inconstancies with the current law. So it 
should be addressed by the agencies in a timely manner.
    But I am hopeful that we can somehow put a time frame on 
this and monitor it to make sure that we are bringing them back 
before us if it is not done in a timely manner, so that we are 
addressing these concerns, at the very least, through 
legislation, which I think is unnecessary. Thank you.
    The Chairman. Senator, I think that is right on the mark. 
So I think I would just follow up with a question to Director 
Bighorn as to when we can expect a response.
    Mr. Bighorn. Mr. Chairman, I will go back and talk to my 
leadership and get back to you as quickly as possible, take all 
the information that I have had given to me today. I understand 
the urgency of this Committee. We also would like to resolve 
any issues that have come up, and I give you my guarantee that 
I will take this back to my leadership and get back to you as 
quickly as possible with some information.
    The Chairman. Yes. Why don't you get back to us within 30 
days? Even if you don't have a definitive answer, the Committee 
would like to hear back within 30 days.
    Mr. Bighorn. Mr. Chairman, I will take that back to my 
leadership, in 30 days.
    The Chairman. Okay. The other thing is, did the Department 
of Interior follow Executive Order 13175, which mandates 
consultation in developing the MOA? Was that done?
    Mr. Bighorn. In the development of this MOA, there was no 
tribal consultation in the process of developing it. It was 
just, as Ms. Zientek said, the MOA was completed and then we 
had a meeting with them to update them on what was developed.
    The Chairman. Right. So you can see our concern, and I 
think a clear path to go back and redo the MOA with 
consultation. But that is what you are going to come back to us 
with, and then we will go from there.
    Vice Chairman Udall.
    Senator Udall. Thank you very much to all the witnesses 
here today. Just two quick things. One is the comment on 477, 
and Mr. Bighorn, this really is, both these comments are really 
directed toward your leadership. I know you have been sent with 
a policy here, and you don't necessarily set that policy. I 
would really take issue with your statement that the statute 
that we are talking about here today directed the department to 
draft and implement the MOA without consultation, without 
consultation. The Department of Interior knows very well that 
any direction it is given to act is to be one with 
consultation. To say that the statute does not direct it runs 
counter to all Indian law principles, existing executive 
orders, and the spirit and the language of the law that is 
before us.
    We need you very quickly to comply with what exists in your 
department in terms of a mandate to move in the right direction 
on this.
    Also one other brief note, I plan to raise this with 
Assistant Secretary Sweeney. I do understand she is not here 
today. I would ask you to bring this back to the department, to 
her, to the deputy, to the secretary. I am once again 
frustrated by DOI's glacially slow progress with remediation of 
the health and safety issues at the Pine Hill School in New 
Mexico, after tireless prodding from me and my staff and 
requiring DOI to provide my office with weekly updates.
    The department finally announced a facility remediation 
plan in April of this year. However, since then, the department 
has failed to provide its required progress reports. By the end 
of the week, I would like the department to submit updates on 
the following items: replacement of the perimeter safety 
fencing, repair of the middle school roof, and remediation of 
mold in the library, gymnasium, and kindergarten classroom.
    With that, thank you again to all the witnesses here today, 
and thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall. If there are 
no more questions for today, members can, however, submit 
follow-up questions for the record, and the hearing record will 
be open for two weeks
    So again, I want to thank all the witnesses, as well for 
being here, and for your testimony. To both you, President 
Andersen, and Ms. Zientek, thanks for your good work and what I 
thought was just very clear testimony today. So we greatly 
appreciate you.
    Ms. Zientek. Thank you.
    The Chairman. Thanks so much. And Director Bighorn, we look 
forward to working with you on this important issue. Thank you.
    Mr. Bighorn. Thank you, Mr. Chairman.
    The Chairman. Thank you all.
    With that, we are adjourned.
    [Whereupon, at 4:09 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Chuck Hoskin Jr.
    Question. There is a severe health care provider shortage in Indian 
Country, contributing to lowered health outcomes for many tribal 
communities. However, you noted that the Cherokee Nation is using the 
477 Program to train some individuals in health professions. How has 
the Cherokee Nation leveraged the 477 Program to start addressing its 
own health care provider shortages?
    Answer. The Cherokee Nation P.L. 102-477 Program assisted 361 
individuals with vocational training services during the last fiscal 
year. Of these, 187 were enrolled in Health Occupations. The majority 
of these were Certified Nursing Assistants/Certified Medication 
Assistants at 70, followed by Licensed Practical Nursing at 37. The 
others were a combination of Dental Hygienist, Sonographers, Emergency 
Medical Technicians, Echocardiography Technicians, Radiology 
Technicians, Pharmacy Technicians, Surgical Technicians, Medical 
Coding, Occupational Therapy Assistants, and Physical Therapy 
Assistants.
    During the current fiscal year, the PL 102-477 Program will 
continue training in Health Occupations, prioritizing training in 
Addiction and Substance Abuse Treatment, Pain Management, and 
Behavioral Health in order to address the on-going opioid crisis.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Margaret Zientek
Identifying 477-Eligible Grant Programs
    Question 1. I understand the 477 Tribal Workgroup is compiling a 
list of programs across participating departments that meet the 
statutory requirements for 477 eligibility. Why did the Workgroup 
decide to take on this task? Does the Workgroup believe it would be 
helpful for the 12 federal agencies involved in the 477 Program to 
produce a non-exclusive list of eligible programs?
    Answer. The 477 Tribal Work Group has begun the process of 
compiling an ad-hoc list of programs across the 12 participating 
department that meet the statutory requirements for 477 eligibility as 
a tool for both Tribes and the agencies to see for themselves the 
possibilities Congress provided by significantly expanding the 
eligibility under the amended 477 law, as amended. The Work Group's 
list is unofficial and intended to help Tribes with a starting-place in 
thinking about whether, and how, expanding their individual 477 plans 
could benefit their communities. This effort started during the time 
between the passage of the amended 477 law and the issuance 
interdepartmental MOA one year later, during which time the Department 
of the Interior placed a moratorium on new or expanded plans.
    We also undertook this work in response to certain federal 
agencies' history of bad-faith dealing with respect to the 477 program 
and in anticipation of those agencies attempting to undermine the 
program. As the testimony of the November 6, 2020 hearing made clear, 
our concerns were prescient.
    The Work Group has considered and debated, over the years, whether 
it would be helpful for the agencies to compile their own, non-
exclusive, list for use amongst themselves and with the Tribes. There 
might be some utility in having such an ``official'' list. However, we 
are deeply concerned that the agencies would make eligibility 
determinations about specific programs without the context provided by 
the rest of a plan, and that those initial eligibility determinations 
would become de facto final determinations, even if styled as ``non-
exclusive.'' Our experience in related contexts leads us to be 
concerned that that any program not included on the agencies' list 
would automatically be denied for inclusion in a plan.
    Moreover, it is very likely that the eligibility determinations for 
inclusion on the official list would be made by each individual agency, 
which would undermine Congress' clear intent that the question of 
whether a program is eligible for inclusion in a 477 plan is left to 
the Department of the Interior alone. Therefore, the Work Group does 
not, at this time, support an agency-compiled list of eligible 
programs.
Technical Assistance
    Question 2. Cherokee Nation Principal Chief Hoskin testified his 
Tribe is using the 477 program as part of their efforts to develop a 
pipeline to train Native workers in the health care sector. If Tribes 
are interested in using 477 to train their members in areas like health 
care, public safety, or education, where can they go for technical 
assistance to meet that goal?
    Answer. As Cherokee Nation Principal Chief Hoskin testified, Tribes 
try to address the needs of their community through a comprehensive 477 
strategy. One of the critical needs in many of our Native American 
communities lies within the Health Care Sector. For some parts of the 
country, that need may be in the Education or Safety Sectors.
    The Division of Workforce Development Director Terrence Parks and 
his front-line staff Awarding Official Technical Representatives are 
our best resources for Technical Assistance. Mr. Parks and his staff 
are very dedicated and work to reach out to tribes to help secure 
technical assistance from peers and other sources.
    Currently, due to circumstances not divulged to tribes, Tribes are 
not able to access technical assistance from Mr. Parks. Tribes look 
forward to the issue being resolved so that we may once again be able 
to rely on the knowledge and assistance Mr. Parks offers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                             Spike Bighorn
    The Senate Committee on Indian Affairs worked to amend Public Law 
102-477--``the 477 program'' to increase employment opportunities in 
tribal communities through enabling greater tribal self-determination 
and decreasing unnecessary federal bureaucracy. In 2017, based on the 
success of the 477 program and with tribal support, the amendments were 
passed by Congress and signed into law. These 2017 amendments expand 
the 477 program to 12 federal departments, clarified program and 
funding eligibility, reaffirmed BIA as the lead agency in operating the 
477 program, and charged the Secretary of the Interior in conjunction 
with the heads of the other participating federal departments to enter 
into a memorandum of agreement (MOA) providing for the implementation 
of the law. At the hearing, the Committee heard from tribal leaders and 
the chairwoman of the P.L. 477 workgroup regarding Indian Country's 
concern over the MOA and its misapplication of the law.

    Question 1. Will the Department of the Interior commit to re-
working the interdepartmental MOA so that it accurately reflects the 
law?
    Answer. The Department believes that the MOA complies with the law. 
As with any program, we continually evaluate whether we can make 
improvements, and the 477 program is no exception. The Department and 
the other Federal partners are still in the process of implementing the 
477 program, consistent with the statute and the MOA. Accordingly, when 
appropriate, part of the Department's evaluation efforts will include 
initiating tribal consultation to solicit input from Indian Country 
regarding implementation of the 477 program, including input concerning 
the language intent of the law.

    Question 2. What actions has the Department of the Interior taken 
to ensure the MOA will be re-worked?
    Answer. The Department and the other Federal partners are still in 
the process of implementing the 477 program, consistent with the 
statute and the MOA. As noted above, when appropriate, the Department 
will initiate tribal consultation to solicit input from Indian Country 
regarding implementation of the 477 program.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Spike Bighorn
Identifying 477-Eligible Grant Programs
    Question 1. The departments that participate in 477 do not 
proactively determine which of their grants will qualify for inclusion, 
placing the burden of identifying potentially 477-eligible grants on 
Tribes. In a recent briefing, Department of the Interior (DOI) staff 
informed Committee staff that they once attempted to compile a list of 
477-eligible programs, only to have to idea rejected by the other 
departments. Please describe any attempts by the Department to compile 
a list of 477-eligible programs and, if the Department ultimately set 
aside such an effort, the events that led to the Department halting its 
efforts.
    Answer. To clarify the process and discussion surrounding the 477-
eligible programs, the Department did not represent that its ideas were 
rejected by other departments. During the 477 MOA development process, 
federal partners, including DOI, discussed developing a list of 
programs that may be eligible for integration into tribal 477 plans. 
However, at that time, the federal partners agreed that compiling such 
a list may be perceived by federal agencies and Tribes as all-
inclusive, thereby restricting the inclusion of additional programs at 
points in the future. Yet, as a way to help Tribes identify potential 
477 eligible programs, on September 19, 2019, BIA sent a spreadsheet of 
programs that had been identified by tribes for potential inclusion in 
a 477 plan to all of the 477 tribal partners.

    Question 1a. What other actions has DOI taken to reduce the burden 
of identifying 477- eligible grants on Tribes?
    Answer. The Act does not require that DOI carry the administrative 
burden of identifying 477-eligible grants for Tribes across the federal 
government. Instead, our efforts have focused on administering the 477 
program on behalf of the federal partners. DOI and its federal partners 
have been, and continue to be, open to hearing tribal views about 
additional programs that may be eligible for inclusion in the 477 
program.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Spike Bighorn
Duckwater Shoshone Issue
    In accordance with the Nevada Native Nations Land Act the BLM 
Nevada state office is currently developing a survey to define new 
boundaries for the Duckwater Shoshone Tribe in Nevada. Pursuant to this 
law, the survey was to be completed within 6 months of enactment (April 
2017). However, the BLM has missed this federal statutory deadline by 
more than 2.5 years. The BLM has also not responded to the tribe's 
meeting requests to begin negotiations on a self-governance compact.

    Question 1. Can the BIA please work with the tribe and their agency 
counterparts at BLM to ensure this issue is resolved in a timely 
manner, and provide an update to my office?
    Answer. The Department is committed to working with the Duckwater 
Shoshone Tribe on completing the boundary survey as required by the 
Nevada Native Nations Land Act (P.L. 114-232). While the land was 
conveyed immediately by the law, the BLM continues to work with BIA on 
finishing the boundary survey. The BLM is in the final stages of 
completing the required survey. Additionally, the BLM has been working 
with the tribe on a self-governance compact for grazing. The BLM last 
held a meeting with the tribe in April, 2019, and continues to work 
with the tribe going forward on grazing and range management issues.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tina Smith to 
                             Spike Bighorn
    The Senate Committee on Indian Affairs worked to amend the Public 
Law 102-477--``the 477 program''--to strengthen tribal self-
determination and support economic development on tribal lands. Those 
amendments, which were signed into law in 2017, intend to give tribal 
governments better control of how funding is used. I'm concerned by 
reports that federal agencies, particularly the U.S. Department of 
Health and Human Services (HHS), are not carrying out these amendments 
as intended.

    Question 1. If an Indian tribe proposes in its 477 plan to spend 
some of its workforce development program funding on a jobs-related 
native language and cultural component, do you agree that the statute, 
as amended, requires the federal government to approve the tribe's 
plan?
    Answer. The intent of the 477 program is for DOI to administer it 
on behalf of federal partners. Pursuant to that purpose, the MOA 
prescribes the process for evaluating and acting upon Tribes' proposed 
477 plans.

    Question 2. Do you agree that the mandatory waiver authority in 25 
USC 3406 means HHS must identify and grant any requested waiver that is 
``necessary to enable the Indian tribe to efficiently implement the 
[tribe's 477] plan'' so long as the waiver is not inconsistent either 
with (a) the purposes of 477 or (b) a statute that is specifically 
applicable to Indians and not a statute of general applicability?
    Answer. 25 U.S.C.  3406(d)(2) provides that a waiver request may 
only be denied if it is (a) inconsistent with the purposes of the Act, 
or (b) the provisions of law from which the program included in the 
plan derives its authority that is specifically applicable to Indians.

    Question 3. What is your view of the purpose of 477?

         [25 USC 3401: ``The purpose of this chapter is to facilitate 
        the ability of Indian tribes. . .to integrate the employment, 
        training and related services they provide from diverse Federal 
        sources in order to improve the effectiveness of those 
        services, reduce joblessness in Indian communities, and serve 
        tribally determined goals consistent with the policy of self-
        determination, while reducing administrative, reporting, and 
        accounting costs.'']

    Answer. The purpose of Public Law 102-477 is to facilitate the 
ability of Indian tribes and tribal organizations to integrate the 
employment, training and related services they provide from diverse 
Federal sources in order to improve the effectiveness of those 
services, reduce joblessness in Indian communities, and serve tribally 
determined goals consistent with the policy of self-determination, 
while reducing administrative, reporting, and accounting costs.

    Question 4. Do you agree that native language training and cultural 
education activities are services related to job training within the 
purposes of 477?
         (25 USC 3404(a)(l)(A)(x): ``The programs that may be 
        integrated pursuant to a plan. . .shall be only programs 
        implemented for the purpose of. . .any services related to 
        the[se] activities [job training, welfare to work and tribal 
        work experience, creating or enhancing employment 
        opportunities, skill development, assisting Indian youth and 
        adults to succeed in the workforce, facilitating the creation 
        of job opportunities].''

    Answer. Pursuant to the statute, each tribal plan is reviewed by 
the Department and affected agencies. If a Tribe submits a plan that 
includes Native language training and cultural education activities, 
the plan will be reviewed to determine whether such training and 
activities may be included in a 477 plan.

    Question 5: In your review, does native language skill and cultural 
knowledge enhance employability in Indian Country?
    Answer. Depending on labor market opportunities and other factors, 
language skills and cultural knowledge may enhance employability in any 
community.

    Question 6. The Mille Lacs Band of Ojibwe in my state has a long 
and productive history of making maximum use of its 477 authority. The 
Band is using its TANF funds to help integrate its language and culture 
into its job training efforts. Do you agree that this approach is 
precisely what the Band is authorized to do under 25 USC Section 
3404(b)?
    Answer. The Band, like other eligible Tribes and tribal 
organizations, may seek approval of a 477 plan that incorporates 
programs that are eligible for inclusion in its 477 program for the 
purposes stated in 25 U.S.C.  3404. The Department has worked with HHS 
and the Band so that the Band's 477 Master Plan for October 1, 2019, to 
September 30, 2022, could be approved.

                                  [all]
</pre></body></html>
